<html>
<title> - OVERSIGHT HEARING ON UNMASKING THE HIDDEN CRISIS OF MURDERED AND MISSING INDIGENOUS WOMEN (MMIW): EXPLORING SOLUTIONS TO END THE CYCLE OF VIOLENCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 UNMASKING THE HIDDEN CRISIS OF MURDERED AND MISSING INDIGENOUS WOMEN 
       (MMIW): EXPLORING SOLUTIONS TO END THE CYCLE OF VIOLENCE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

        SUBCOMMITTEE ON INDIGENOUS PEOPLES OF THE UNITED STATES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 14, 2019

                               __________

                            Serial No. 116-8

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-582 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a>                          
          
          
      
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 ------                                

        SUBCOMMITTEE FOR INDIGENOUS PEOPLES OF THE UNITED STATES

                        RUBEN GALLEGO, AZ, Chair
                PAUL COOK, CA, Ranking Republican Member

Darren Soto, FL                      Don Young, AK
Michael F. Q. San Nicolas, GU        Aumua Amata Coleman Radewagen, AS
Debra A. Haaland, NM                 John R. Curtis, UT
Ed Case, HI                          Kevin Hern, OK
Matt Cartwright, PA                  Vacancy
Vacancy                              Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                               --------
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 14, 2019.........................     1

Statement of Members:
    Cook, Hon. Paul, a Representative in Congress from the State 
      of California..............................................     4
        Prepared statement of....................................     4
    Gallego, Hon. Ruben, a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Buffalo, Hon. Ruth, State Representative, North Dakota House 
      of Representatives 27th District, Fargo, North Dakota......    14
        Prepared statement of....................................    15
        Questions submitted for the record.......................    17
    Deer, Sarah, Professor of Women, Gender, and Sexuality 
      Studies, School of Public Affairs and Administration and 
      School of Law, University of Kansas, Lawrence, Kansas......     6
        Prepared statement of....................................     7
        Questions submitted for the record.......................    12
    Jerue, Tamra Truett, Executive Director, Alaska Native 
      Women's Resource Center (ANWRC), Fairbanks, Alaska.........    34
        Prepared statement of....................................    36
        Questions submitted for the record.......................    42
    Nagle, Mary Kathryn, Legal Counsel, National Indigenous 
      Women's Resource Center (NIWRC), Lame Deer, Montana........    18
        Prepared statement of....................................    20
        Questions submitted for the record.......................    25

Additional Materials Submitted for the Record:
    Amnesty International USA, March 15, 2019 Letter to Chairman 
      Gallego, statement for the record..........................    54
                                     


 
   OVERSIGHT HEARING ON UNMASKING THE HIDDEN CRISIS OF MURDERED AND 
 MISSING INDIGENOUS WOMEN (MMIW): EXPLORING SOLUTIONS TO END THE CYCLE 
                              OF VIOLENCE

                              ----------                              


                        Thursday, March 14, 2019

                     U.S. House of Representatives

        Subcommittee on Indigenous Peoples of the United States

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Ruben Gallego 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gallego, Soto, Haaland, 
Cartwright, Grijalva; Cook and Radewagen.

    Mr. Gallego. The Subcommittee for Indigenous Peoples of the 
United States will now come to order.
    The Subcommittee is meeting today to hear testimony on 
``Unmasking the Hidden Crisis of Murdered and Missing 
Indigenous Women: Exploring Solutions to End the Cycle of 
Violence.''
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member. This will allow us to hear from our witnesses sooner 
and helps Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5 p.m. today, or the 
close of hearing, whichever comes first.
    Hearing no objections, so ordered.

 STATEMENT OF HON. RUBEN GALLEGO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Gallego. Good morning to you all, and a warm welcome to 
our witnesses today.
    Today, we will be confronting a deeply troubling and 
disturbing situation affecting Indian Country nationwide: the 
hidden crisis of missing and murdered indigenous women.
    A 2016 National Institute of Justice report noted that 1.5 
million American Indian and Alaska Native women experience 
violence in their lifetime.
    On reservations, American Indian and Alaska Native women 
experience murder rates 10 times the national average. 
Additionally, an independent report found at least 5,712 cases 
of missing or murdered indigenous women that were reported just 
in 2016.
    In reality, these numbers are much larger because 
indigenous women are often unrepresented in national and local 
data. A lack of comprehensive data to quantify the number of 
missing and murdered women in Indian Country is just one factor 
contributing to this crisis.
    The witnesses we have here today will attest to many other 
factors that exasperate the situation, including the following: 
extreme jurisdictional challenges in our criminal justice 
system leading to confusion, delays, and lack of prosecution; 
and inadequate resources for tribal justice systems.
    Before we begin, I would like to share with you all just a 
few of the heartbreaking cases that have brought new attention 
to this situation in Indian Country and that highlight some of 
the failures of our current system.
    Ashley Loring Heavy Runner was last seen in June 2017 on 
the Blackfeet Reservation in Montana. Her family and friends 
spent a year searching for her on their own.
    In February 2018, 9 months after Ashley went missing, the 
Federal Bureau of Investigation finally joined the search. To 
this day, even with the help of the FBI, Ashley still remains 
missing.
    In 2013, MacKenzie Howard, a 13-year-old villager from 
Kake, Alaska, went missing after a memorial ceremony. After her 
body was found behind a local church, it took 11 hours for 
state troopers to finally arrive, during which time the village 
men guarded MacKenzie's body and the crime scene throughout the 
night.
    In 2016, Ashlynne Mike, an 11-year-old Navajo girl, was 
found dead after being tricked into accepting a ride home from 
a stranger while playing after school on the Navajo 
Reservation. Because of jurisdictional issues, an official 
AMBER Alert for Ashlynne was not issued until 12 hours after 
her disappearance.
    According to a study on child abductions by the Washington 
State Attorney General's Office, 76 percent of kidnapped 
children are killed within the first 3 hours.
    In 2017, Savanna Greywind, a 22-year-old member of the 
Spirit Lake Tribe, went missing in Fargo, North Dakota. Savanna 
was 8 months pregnant. Her brutal attack and murder were 
perpetuated by a neighbor, and her body was found 8 days later 
by a kayaker near the Red River, north of Fargo.
    I know these stories are hard to hear. Trust me. It is hard 
for me to read them, but we must face this problem in order to 
address it. We must improve the data systems related to 
murdered and missing indigenous women to truly identify the 
scope of this problem.
    We must prioritize intergovernmental communication to 
reduce the lag time responding to these atrocities, and we must 
change the law to improve the proactivity in combatting 
violence against indigenous women. We must take action so this 
does not keep on going.
    Today, we are going to hear some invaluable testimony from 
experts who are fighting on the front lines of this battle on 
what is working, what is not, and what we can do here in 
Congress to end the cycle of violence.

    [The prepared statement of Mr. Gallego follows:]
 Prepared Statement of the Hon. Ruben Gallego, Chair, Subcommittee on 
                Indigenous Peoples of the United States
    Good morning to you all, and a warm welcome to all our witnesses 
here today.
    Today, we will be confronting a deeply troubling and disturbing 
situation affecting Indian Country nationwide--the hidden crisis of 
Missing and Murdered Indigenous Women.
    A 2016, National Institute of Justice report noted that 1.5 million 
American Indian and Alaska Native women experience violence in their 
lifetime.
    On reservations, American Indian and Alaska Native women experience 
murder rates 10 times the national average. Additionally, an 
independent report found at least 5,712 cases of missing or murdered 
Indigenous women were reported in 2016.
    In reality, these numbers are much larger, because Indigenous women 
are often unrepresented in national and local data. A lack of 
comprehensive data to quantify the number of missing and murdered women 
in Indian Country is just one factor contributing to this crisis.
    The witnesses we have here today will attest to many other factors 
that exacerbate this situation, including:

    <bullet> Extreme jurisdictional challenges in our criminal justice 
            system leading to confusion, delays and lack of 
            prosecution, and

    <bullet> Inadequate resources for tribal justice systems.

    Before we begin, I would like to share with you all just a few of 
the heartbreaking cases that have brought new attention to this 
situation in Indian Country, and that highlight some of the failures of 
our current system.

    Ashley Loring HeavyRunner was last seen in June 2017 on the 
Blackfeet Reservation in Montana. Her family and friends spent a year 
searching for her on their own.
    In February 2018, 9 months after Ashley went missing, the Federal 
Bureau of Investigation finally joined the search. To this day, even 
with the help of the FBI, Ashley remains missing.

    In 2013, Mackenzie Howard, a 13-year-old villager from Kake, 
Alaska, went missing after a memorial ceremony. After her body was 
found behind a local church, it took 11 hours--ELEVEN HOURS--for State 
Troopers to finally arrive, during which time the village men guarded 
Mackenzie's body and the crime scene throughout the night.

    In 2016, Ashlynne Mike, an 11-year-old Navajo girl, was found dead 
after being tricked into accepting a ride home from a stranger while 
playing after school on the Navajo Reservation. Because of 
jurisdictional issues, an official Amber Alert for Ashlynne wasn't 
issued until 12 hours after her disappearance.
    According to a study on child abductions by the Washington State 
Attorney General's Office, 76 percent of kidnapped children are killed 
within the first 3 hours.

    In 2017, Savanna Greywind, a 22-year-old member of the Spirit Lake 
Tribe, went missing in Fargo, North Dakota. Savanna was 8 months 
pregnant. Her brutal attack and murder were perpetrated by a neighbor, 
and her body was found 8 days later by a kayaker near the Red River, 
north of Fargo.

    I know these stories are hard to hear, but we must face this 
problem in order to address it. We must improve data systems related to 
murdered and missing Indigenous women to truly identify the scope of 
this problem.
    We must prioritize intergovernmental communication to reduce lag 
time in responding to these atrocities. And we must change law 
enforcement protocols to improve proactivity in combatting violence 
against indigenous women. We must take action so that history doesn't 
keep repeating itself.
    Today, we'll hear invaluable testimony from experts who are 
fighting on the front lines of this battle on what is working, what is 
not, and what we can do here in Congress to end this cycle of violence.

                                 ______
                                 

    Mr. Gallego. I would now like to recognize the Ranking 
Member, Mr. Cook, for his opening statement.

STATEMENT OF HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Cook. Thank you very much, Mr. Chairman.
    And thank you to our witnesses for being here today.
    Today's hearing is focused on a very, very difficult 
subject, but a very serious issue faced by Native communities 
and especially by Native women.
    Crime and violence, tragically, are not a new phenomenon in 
Indian Country. The Department of Justice has emphasized making 
law enforcement in Indian Country a priority because American 
Indians are victims of violent crimes at rates higher than the 
general population.
    Compounding the problem is the fact that many tribal 
communities are found in remote, rural areas where tight tribal 
police budgets make timely and effective response to crimes on 
a reservation that much more challenging.
    There also appears to be a consensus among experts that the 
trends of high rates of domestic violence against Native women 
continue, despite the enactment of two major laws since 2010 to 
tackle this problem. I am speaking of the Tribal Law and Order 
Act of 2010 and the Violence Against Women Reauthorization Act 
of 2013, of which I was pleased to support and vote for, known 
as VAWA.
    While reliable, timely data concerning crime and law 
enforcement in Indian Country can be hard to come by, depending 
on the scope and methods of each report on the topic, all have 
shown there is a problem plaguing tribal communities.
    I am pleased that the Department of the Interior has 
included in its budget proposal a new initiative to combat 
crime, specifically against Native American women in Indian 
Country.
    It would be helpful, and we talked about this, in the 
future to have witnesses representing the Departments of the 
Interior and Justice to tell us what the officers and Federal 
prosecutors are doing about missing and murdered Native women, 
but I don't believe we have any here today.
    And the other reason is, quite frankly, they could get the 
message that we are very, very concerned about that, and all of 
us think that we need more funding in these vital areas to 
perhaps correct that problem.
    Given the complicated jurisdictional issues in Indian 
Country, we must ensure that all at the table are working to 
reduce these types of crimes. And I want to thank the Chairman 
for allowing me to testify. Thank you.

    [The prepared statement of Mr. Cook follows:]
Prepared Statement of the Hon. Paul Cook, Ranking Member, Subcommittee 
              for Indigenous Peoples of the United States
    Thank you, Chairman Gallego, and thank you to our witnesses for 
being here today.
    Today's hearing is focused on a very difficult subject, but a very 
serious issue faced by Native communities and especially Native women.
    Crime and violence, tragically, are not a new phenomenon in Indian 
Country. The Department of Justice has emphasized making law 
enforcement in Indian Country a priority because American Indians are 
victims of violent crimes at rates higher than the general population.
    Compounding the problem is the fact that many tribal communities 
are found in remote, rural areas, where tight tribal police budgets 
make timely and effective response to crimes on a reservation that much 
more challenging.
    There also appears to be a consensus among experts that the trend 
of high rates of domestic violence against Native women continue 
despite the enactment of two major Federal laws since 2010 to tackle 
this problem. I'm speaking of the Tribal Law and Order Act of 2010, and 
the Violence Against Women Reauthorization Act of 2013.
    While reliable, timely data concerning crime and law enforcement in 
Indian Country can be hard to come by, depending on the scope and 
methods of each report on the topic, all have shown there is a problem 
plaguing tribal communities.
    I am pleased that the Department of the Interior has included in 
its budget proposal, a new initiative to combat crime, specifically 
against Native women, in Indian Country.
    It would be helpful to have witnesses representing the Departments 
of the Interior and Justice here to tell us what their officers and 
Federal prosecutors are doing about missing and murdered Native women, 
but I don't believe any of these officials were invited to testify 
today.
    I hope the Chairman might join me in requesting a briefing from the 
Departments of the Interior and Justice to advance our efforts to help 
bring about a positive resolution to the missing, murdered Indigenous 
women crisis.
    Given the complicated jurisdictional issues in Indian Country, we 
must ensure all are at the table working together to reduce crime.
    Thank you, Mr. Chairman.

                                 ______
                                 

    Mr. Gallego. Thank you, Ranking Member Cook, and I look 
forward to working with you in this Congress to move this along 
and bring some justice to our Indian Country.
    Now I will introduce our expert witnesses for today. Our 
first witness is Sarah Deer. She is a citizen of the Muscogee 
Creek Nation, lawyer, and Professor of Women, Gender, and 
Sexuality Studies at the University of Kansas, and also, she 
has just recently been inducted into the National Women's Hall 
of Fame.
    Congratulations, and thank you for being here.
    Next is going to be the Honorable Ruth Buffalo, citizen 
of--and I apologize--the Mandan, Hidatsa, and Arikara Nation, 
and member of the North Dakota State House of Representatives.
    You are welcome, Your Honor, and I apologize if I have 
messed up any of those names and titles.
    Our next witness is Mary Kathryn Nagle, a member of the 
Cherokee Nation of Oklahoma and legal counsel to the National 
Indigenous Women's Resource Center.
    And finally, our last witness is Tami Jerue, an Athabaskan 
mother of four, and Executive Director of the Alaska Native 
Women's Resource Center.
    Thank you all for being here.
    Let me remind witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire written statement will appear in the hearing record.
    When you begin, the lights on the witness table in front of 
you will turn green. After 4 minutes, the yellow light will 
come on. Your time will have expired when the red light comes 
on, and I will ask you to please wrap up your statement.
    I will also allow the entire panel to testify before we 
begin questioning of the witnesses.
    The Chair now recognizes Ms. Sarah Deer to testify.

   STATEMENT OF SARAH DEER, PROFESSOR OF WOMEN, GENDER, AND 
SEXUALITY STUDIES, SCHOOL OF PUBLIC AFFAIRS AND ADMINISTRATION 
   AND SCHOOL OF LAW, UNIVERSITY OF KANSAS, LAWRENCE, KANSAS

    Ms. Deer. Good morning. The Honorable Chairman Raul 
Grijalva, Ranking Member Rob Bishop, Chairman Ruben Gallego, 
Ranking Member Paul Cook, and members of the Committee, I would 
like to express my deep appreciation and thanks for inviting me 
to testify before this Subcommittee on missing and murdered 
indigenous women, or MMIW.
    I am a citizen of the Muscogee Creek Nation of Oklahoma and 
currently hold a position as Professor at the University of 
Kansas. I also serve as the Chief Justice for the Prairie 
Island Indian Community Court of Appeals.
    Today, I am testifying in my personal capacity.
    My testimony today will focus on our knowledge in terms of 
the high numbers of MMIW, and I will offer some theories about 
the causes of the high rates, and finally, a few suggestions on 
how Congress can improve law enforcement's response to this 
crisis.
    I would like to mention the names of four of my fellow 
tribal members from the Muscogee Creek Nation: Faren McGirt, 
missing, 1999; Peggie McGuire, missing, 2015; Ruthanne McGirt 
Staller Rex, murdered in March 2015; and Margie Childers, whose 
body was just found 2 days ago in Oklahoma.
    I think it is critical to understand that the crisis that 
we are talking about today has deep roots in the historical 
mistreatment of Native people throughout the history of the 
United States. Native women and girls have been disappearing 
literally since 1492 when Europeans kidnapped Native people for 
shipment back to Europe.
    Targeted killing of Native women is also not a recent 
phenomenon. The history of oppression makes it difficult to 
achieve buy-in for marginalized communities who have been 
victims of oppression at the hands of the Federal Government.
    When crafting solutions, we have to be ready to accept that 
there will be no quick fix to this problem. The crisis has been 
several hundred years in the making and will require sustained, 
multi-year, multi-faceted efforts to understand and address the 
problem.
    I want to mention an organization called the Sovereign 
Bodies Institute, which has been collecting the names and 
stories of MMIW in the United States. Currently, that database 
has over 1,870 names.
    There are many questions about why these rates are as high 
as they are. In my written testimony, I mention several 
factors, including jurisdictional barriers, indifference from 
government officials, the lack of cross-jurisdictional 
communication and planning, the failure to adequately fund 
tribal justice systems, and the problem of sex traffickers and 
other predators targeting Native women specifically.
    We know the jurisdictional questions are always at the 
forefront of any question about crime in Indian Country, and 
this is no different. There are a variety of legal 
jurisdictional questions that immediately arise when a tribal 
member goes missing.
    Did they live on the reservation? Did they disappear from 
the reservation? Did they disappear off the reservation? What 
agency has jurisdiction? Does the tribe have concurrent 
jurisdiction?
    So, we need to have some resolution to these questions.
    I want to now move to a more difficult factor, which is the 
predatory targeting of Native women and girls.
    While most women victims of homicide in the United States 
are killed by someone they know, there is sufficient evidence 
that there are predators who target Native women and girls for 
trafficking.
    In 2010, law enforcement officers in Alaska determined that 
Alaska Native girls and women who traveled to Anchorage are 
often targeted by sex trafficking rings, in part, because of 
their marketability in the sex trade.
    FBI Agent Jolene Goeden explained, ``Native girls are 
targeted, in part, because they are considered versatile, 
meaning they can be advertised on the Internet as Hawaiian or 
Asian.''
    An Anchorage-based sex trafficker named Troy Williams, who 
was finally convicted after years of targeting Alaska Native 
teenage girls who were struggling with rough childhoods, 
poverty and addiction, trapped victims in the sex trade through 
brute force, including sadistic beatings, icy baths, and sleep 
deprivation.
    In Canada, an investigation by reporters for Globe and Mail 
Newspaper concluded that indigenous women in Canada, which has 
a similar history, are seven times more likely than a non-
indigenous woman to die at the hands of a serial killer.
    Thank you for allowing me to testify today. I am hopeful 
that new attention on a very old problem will finally begin to 
stem the crisis of murdered and missing indigenous women. As a 
Nation, I believe we are better than this. Please support the 
families of MMIW to find their loved ones and bring them home.

    [The prepared statement of Ms. Deer follows:]
    Prepared Statement of Professor Sarah Deer, University of Kansas
    The Honorable Chairman Raul M. Grijalva, Ranking Member Rob Bishop, 
Chairman Ruben Gallego, Ranking Member Paul Cook, and members of the 
Committee, Hensci! Mvccv nettv ce homv hueret cem kerkuecetv vm 
pohateckat, mvto cekicis. Svcvfvckes.\1\
---------------------------------------------------------------------------
    \1\ Translation from the Mvskoke language: ``Hello! I thank you for 
inviting me to stand before you to testify today. I am pleased with 
this invitation.''
---------------------------------------------------------------------------
    I would like to express my deep appreciation and thanks for 
inviting me to testify before this Subcommittee on Missing and Murdered 
Indigenous Women (MMIW). I am a citizen of the Muscogee (Creek) Nation 
and currently hold the position of Professor at the University of 
Kansas and serve as the Chief Justice of the Prairie Island Indian 
Community Court of Appeals. Today I am testifying in my personal 
capacity.
    My testimony today will focus on our knowledge in terms of the high 
numbers of MMIW based on open source reporting (media reports and 
family accounts). I will offer some theories about the causes of this 
high rate of MMIW. Finally, I will suggest how this Committee, and 
Congress generally, can improve law enforcement's response to this 
crisis.
                        statistics: what we know
    First, it is critical to understand that this crisis has deep roots 
in the historical mistreatment of Native people throughout the history 
of the United States. Native women and girls have been disappearing 
since 1492, when Europeans kidnapped Native people for shipment back to 
Europe. Targeted killing of Native women is also not a recent 
phenomenon. This history of oppression makes it difficult to achieve 
buy-in from marginalized communities who have been victims of 
oppression at the hands of the Federal Government for centuries.
    When crafting solutions, we have to be ready to accept that there 
will be no ``quick fix'' to this problem. This crisis has been several 
hundred years in the making and will require sustained, multi-year, 
multi-faceted efforts to understand and address the problem.
    Currently, there is no formal government-funded national database 
that carefully and deliberately tracks cases of MMIW. Fortunately, a 
Native-owned and -operated non-profit organization known as the 
Sovereign Bodies Institute (SBI) has been working tirelessly since 2015 
to gather as much data as possible using open source reporting and 
input from family members of MMIW. I share this data with the 
permission of the Sovereign Bodies Institute (SBI):

    Because this database has largely been built by hand, the data 
likely only represents a fraction of the true numbers.

    The SBI database currently tracks the following types of MMIW 
cases:

    <bullet> Missing

    <bullet> Murdered (both solved and unsolved)

    <bullet> Suspicious deaths

    <bullet> Deaths in custody (jail/prison/hospital)

    <bullet> Jane Does (unidentified human remains thought to be Native 
            women)

    Currently, the database has over 1,870 MMIW names in the United 
States. Most of the database is recent; approximately 75 percent of the 
names of MMIW are cases from the year 2000 or later.

    <bullet> Demographics: The average age is 26, but over one-third 
            are 18 years old and under

    <bullet> Over 436 different tribal nations are represented in the 
            database

    <bullet> Categories: Within the database, approximately 50 percent 
            are murder cases, 40 percent are unsolved missing cases, 
            and the status of 10 percent are unknown

    <bullet> Foster Care: The database tracks Native girls who go 
            missing or are killed while in foster care. Of those girls, 
            over 75 percent of them were experiencing abuse in their 
            foster home

    <bullet> Mothers as Victims: The database reveals that over 85 
            percent of the MMIW are mothers. This means countless 
            numbers of youth are growing up without a mother.

    <bullet> Vulnerability: 29 of the 1,870 entries of MMIW have 
            another MMIW in their family

    <bullet> Police Violence: There are nearly 40 cases of deaths 
            caused by police brutality or deaths in custody in the 
            database

                     reasons for high rates of mmiw
    While there is no single cause (no primary risk factor), that one 
can point to as the reason for high rates of MMIW, experts suggest 
several explanations for the disparity.

    These explanations include:

    <bullet> jurisdictional barriers

    <bullet> indifference from government officials

    <bullet> the lack of cross-jurisdictional communication and 
            planning

    <bullet> failure to adequately fund tribal justice systems, and

    <bullet> the problem of sex traffickers and other predators 
            targeting Native women specifically

A. Jurisdiction
    Native women and girls are vulnerable to violent crime because of 
the complicated jurisdictional scheme that applies to Indian Country. 
Whether a Native person is taken against their will from the 
reservation, is being held against her will on the reservation or is 
the victim of a homicide on the reservation, tribal officials will 
usually be the first responders. However, tribal criminal jurisdiction 
is significantly and unacceptably curtailed, particularly when the 
offender or suspected offender is non-Indian.\2\
---------------------------------------------------------------------------
    \2\ Tribal nations lack criminal jurisdiction over non-Indians in 
most cases pursuant to Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 
(1978).
---------------------------------------------------------------------------
    A variety of legal jurisdictional questions instantly arise when a 
tribal member goes missing. Did they live on the reservation? Did they 
disappear from the reservation? Did they disappear off the reservation? 
What agency has jurisdiction? Does the tribe have concurrent 
jurisdiction? One common scenario, for example, is that a woman fails 
to show up for an important event, like a family reunion or a funeral. 
Family members report her missing to the police, but there is no way to 
know for sure if she went missing from the reservation or from a nearby 
city or town.
    In addition, when adult individuals disappear, there is often a 
delayed response from law enforcement because, of course, adults have 
the legal right to go where they wish. Some jurisdiction require that 
24 hours or 72 hours pass before a missing person investigation can be 
initiated. We may need to revisit that assumption, particularly where 
Native women are involved.
    There is less certainty that a crime has even been committed and 
the law enforcement response is muted in many jurisdictions, but in 
Indian Country this response often non-existent.
    Due to jurisdictional questions, it may be difficult for the family 
to determine if the tribe, the state (especially in a Public Law 280 
state) or the Federal Government has primary jurisdiction for a missing 
person.
B. Indifference from Officials
    Unfortunately, many families of MMIW have reported receiving poor 
treatment from some law enforcement agencies who fail to prioritize the 
reports of missing Native women.
    The U.S. Senate Committee on Indian Affairs' oversight hearing on 
``Missing and Murdered: Confronting the Silent Crisis in Indian 
Country,'' on December 12, 2018 received testimony from a distinguished 
panel.\3\
---------------------------------------------------------------------------
    \3\ Available at: https://www.indian.senate.gov/hearing/oversight-
hearing-missing-and-murdered-confronting-silent-crisis-indian-country.
---------------------------------------------------------------------------
    The Oversight Hearing heard from Ms. Kimberly Loring-Heavy Runner. 
When Ashley Loring-Heavy Runner went missing on the Blackfeet 
Reservation, her family reported the crime only to find that there 
wasn't much interest in the case. Her sister, Kimberly said, ``No one 
took it seriously . . . They just said: `She's of age, she can leave 
when she wants to.' When we talk to other families whose girls went 
missing, they say that's what they got from law enforcement, too. It's 
not a proper response.'' \4\
---------------------------------------------------------------------------
    \4\ Kate Hodal, A Young Woman Vanishes: The Police Can't Help. Her 
Desperate Family Won't Give Up, The Guardian, (February 25, 2019), 
https://www.theguardian.com/us-news/2019/feb/25/a-young-woman-vanishes-
the-police-cant-help-her-desperate-family-wont-give-up.
---------------------------------------------------------------------------
    Another example is a Crow woman who went missing in Montana in 
2016. When her mother reported her missing to the police, officers 
initially said that there was little they could do because the missing 
woman was an adult. Her mother said, ``It seemed like they weren't 
helping at all because she jumped into the wrong crowd.'' \5\ While the 
FBI is now investigating the disappearance, there are worries that 
valuable time was lost because of the initial failure to take action.
---------------------------------------------------------------------------
    \5\ Sharon Cohen & Mary Hudetz, Haunting Stories Beyond Missing 
Posters of Native Women, Associated Press, September 4, 2008.
---------------------------------------------------------------------------
C. Failure to Adequately Fund Tribal Justice Systems
    It is not new news to this Committee that tribal justice systems 
are chronically underfunded, making it difficult to have necessary 
staffing, training, and resources to adequately address high crime 
rates on Indian reservations. Tribal nations need to be funded at 
sufficient levels so that they can respond immediately to a report of a 
missing woman or girl.
    In December 2018, the United States Commission on Civil Rights 
(USCCR) released a report entitled Broken Promises: Continuing Federal 
Funding Shortfall for Native Americans.\6\ The Commission concludes 
that, ``[f]ederal funding for Native American programs across the 
government remains grossly inadequate to meet the most basic needs the 
federal government is obligated to provide.''
---------------------------------------------------------------------------
    \6\ U.S. Commission on Civil Rights, Broken Promises: Continuing 
Federal Funding Shortfall for Native Americans (2018), https://
www.usccr.gov/pubs/2018/12-20-Broken-Promises.pdf.
---------------------------------------------------------------------------
    Despite numerous reports, commissions, and hearings about the 
failures to fund tribal nations properly since the initial USCCR report 
was released in 2003, there has been little progress toward change.
    Additional funding is needed throughout the justice system, but the 
number of police officers alone indicates the scope of the funding 
problem uncovered by the USCCR. ``[Bureau of Indian Affairs] analysis 
found that an additional $337 million in funding was needed in 2016 to 
bring Indian Country law enforcement staffing levels up to par with 
those of county government law enforcement nationwide (currently Indian 
Country has 1.91 police officers per 1,000 residents).'' \7\
---------------------------------------------------------------------------
    \7\ Id. at 48 (2018).
---------------------------------------------------------------------------
    According to the report, ``[The Government Accountability Office] 
found that because overall funding has not increased and is therefore 
scarce, some tribes might need to choose between meeting the [Tribal 
Law and Order Act] requirements [to exercise enhanced sentencing 
authority] and shortchanging other programs, or completely forgoing 
their new felony sentencing powers. The result is relinquishing 
authority to the Federal Government, while knowing that the Federal 
criminal justice system is inefficient for Native Americans and, at 
times, even considered illegitimate by tribal communities.\8\
---------------------------------------------------------------------------
    \8\ Id. at 43 (2018) (emphasis added) (footnotes omitted).
---------------------------------------------------------------------------
    The report also cites to a 2011 U.S. Government Accountability 
Office Report on Indian Country Criminal Justice \9\ concluding that 
the Departments of the Interior and Justice should strengthen 
coordination to support tribal courts. The GAO report documents the 
challenges tribal courts face given their level of support.
---------------------------------------------------------------------------
    \9\ U.S. Government Accountability Office, Indian Country Criminal 
Justice: Departments of the Interior and Justice Should Strengthen 
Coordination to Support Tribal Courts, (Feb. 2011), https://
www.gao.gov/products/GAO-11-252.
---------------------------------------------------------------------------
    Tribes subject to Public Law 280 are particularly struggling with 
the development of robust criminal justice systems because of chronic 
underfunding. In September 2015, the Bureau of Indian Affairs (BIA) 
provided a report to Congress entitled The Budgetary Cost Estimates of 
Tribal Courts in Public Law 83-280 States.\10\ The Bureau of Indian 
Affairs stated that while it was only funding 6.14 percent of the 
estimated tribal court budget needs for non-P.L. 280 tribes, it was 
only funding 1.22 percent of the budgetary needs ($4.2 million) for 
P.L. 280 tribal courts. The BIA called for an additional $16.9 million 
for P.L. 28-tribal courts. They concede this amount is neither ``robust 
or perhaps even adequate,'' but is at least in parity to the dismal 
6.14 percent non-P.L. 280-tribes receive.\11\
---------------------------------------------------------------------------
    \10\ Bureau of Indian Affairs report.
    \11\ Bureau of Indian Affairs September 2015 report.
---------------------------------------------------------------------------
D. Predatory Targeting of Native Women and Girls
    While most women victims of homicide in the United States are 
killed by someone they know, there is sufficient evidence that there 
are predators who target Native women and girls for trafficking, and 
sufficient evidence that some serial killers have targeted Native women 
and girls. There is also some indication that certain types of 
predators are aware the Native women and girls are particularly 
vulnerable because of the complicated jurisdictional questions that 
arise when they go missing.
    In 2010, law enforcement officers in Alaska determined that Alaska 
Native girls and women who travel to Anchorage are often targeted by 
sex-trafficking rings, in part because of their marketability in the 
sex trade.\12\ FBI agent Jolene Goeden explained, ``Native girls are 
targeted in part because they're considered ``versatile,'' meaning they 
can be advertised on the Internet as Hawaiian or Asian.'' \13\ An 
Anchorage-based sex trafficker named Troy Williams was finally 
convicted after years of targeting Alaska Native teenage girls who were 
struggling with rough childhoods, poverty, and addiction. He trapped 
his victims in the sex trade through brute force, including sadistic 
beatings, icy baths, and sleep deprivation.\14\
---------------------------------------------------------------------------
    \12\ Alex DeMarban, FBI, APD: Sex-Trafficking Rings Target Rural 
Girls New to Anchorage, Anchorage Daily News (July 7, 2016), https://
www.adn.com/alaska-news/article/fbi-apd-sex-trafficking-rings-target-
rural-girls-new-anchorage/2010/10/07/.
    \13\ DeMarban, id.
    \14\ Julia O'Malley, Accused Sex Trafficker Targeted and Terrorized 
Alaska Native Teens, Prosecutor Says, Anchorage Daily News (February 
16, 2017), https://www.adn.com/alaska-news/crime-courts/2017/02/15/
accused-sex-trafficker-targeted-then-terrorized-alaska-native-teens-
prosecutor-says/.
---------------------------------------------------------------------------
    In Canada, an investigation by reporters for the Globe and Mail 
newspaper concluded that Indigenous women in Canada are seven times 
more likely than a non-Indigenous woman to die at the hands of a serial 
killer.\15\ The President of the Native Women's Association of Canada 
said that ``vulnerable indigenous women are being ``targeted'' in urban 
centres by killers confident they will get away with it.'' \16\
---------------------------------------------------------------------------
    \15\ Kathryn Blaze Baum & Matthew McClearn, Prime Target: How 
Serial Killers Prey on Indigenous Women, The Globe and Mail (November 
22, 2015), https://www.theglobeandmail.com/news/national/prime-targets-
serial-killers-and-indigenous-women/article27435090/.
    \16\ Baum & McClearn, id.
---------------------------------------------------------------------------
    Because tribal nations lack criminal jurisdiction over non-Indians, 
legal-savvy predators are attracted to Indian lands because there is 
less likelihood of being caught and prosecuted. This has allowed some 
predators to wreak havoc for generations. Earlier this year, a 
pedophile named Stanley Patrick Weber was finally charged and convicted 
of sexually abusing children on Indian reservations for over two 
decades. Weber was a pediatrician and worked for the Indian Health 
Service right out of residency in the 1980s. Despite numerous concerns 
about his behavior, he was transferred from reservation to reservation 
rather than removing him from practice and was only stopped last year.

    There is some evidence to support the contention that drug 
traffickers and sexual predators are sharing information on lax 
enforcement of laws with respect to Indian Country and Native people. 
The 2011 GAO report is alarming.

        "[A]n official from a South Dakota tribe that we visited told 
        us that the tribe has experienced problems with MS-13 and 
        Mexican Mafia gangs who commit illegal activities such as 
        distribution or sale of illegal drugs on the reservation 
        because, as the official explained, they presume that Federal 
        prosecutors may be more inclined to focus their resources on 
        higher-volume drug cases . . .

        [A] Mexican drug trafficker devised a business plan to sell 
        methamphetamine at several Indian reservations in Nebraska, 
        Wyoming, and South Dakota that first began with developing 
        relationships with American Indian women on these reservations 
        . . .

        According to a special agent involved in the case, the drug 
        trafficker established drug trafficking operations to exploit 
        jurisdictional loopholes believing that he could operate with 
        impunity.'' \17\
---------------------------------------------------------------------------
    \17\ U.S. Government Accountability Office, Indian Country Criminal 
Justice: Departments of the Interior and Justice Should Strengthen 
Coordination to Support Tribal Courts, 15 (Feb. 2011), https://
www.gao.gov/products/GAO-11-252.
---------------------------------------------------------------------------
                            recommendations
    There are currently several legislative proposals in Congress to 
address this crisis. I know that my fellow witnesses will provide more 
detail and insight into what these bills provide and how they can be 
improved. For my part, I am providing a list of more general 
recommendations that are centered on empowering the families of the 
MMIW so that these missing and murdered Native women can receive the 
justice they deserve. In general, I recommend that all congressional 
efforts take direction from Native people themselves. While Federal 
task forces and Federal reports are an important part of 
accountability, perhaps the most important benchmark for accountability 
for this issue is to ensure that families and survivors are treated as 
the experts they are.

  1.  Make accurate national data collection on the MMIW crisis a 
            priority.

  2.  Restore criminal jurisdiction so that tribal governments can 
            prosecute non-Indians who murder, kidnap, or traffic in 
            Native people. Currently these crimes cannot be prosecuted 
            by the tribal nation if committed by a non-Indian. The 
            Supreme Court's Oliphant decision requires a legislative 
            fix. Tribal law enforcement and prosecutors should not be 
            prohibited from protecting the people they serve.

  3.  Provide funding to tribally lead local and regional efforts to 
            address the MMIW crisis through the Gathering of Native 
            Americans (GONA) curriculum. The GONA curriculum is already 
            endorsed by the Department of Health and Human 
            Services.\18\ The GONA model is an indigenous-centric model 
            that encourages and solicits tribal leadership to develop 
            solutions to difficult problems.
---------------------------------------------------------------------------
    \18\ Substance Abuse and Mental Health Services Administration, 
Gathering of Native Americans Fact Sheet, (2016).

  4.  Improve the efficacy of the Federal NamUs (National Missing and 
            Unidentified Persons System) by encouraging better response 
---------------------------------------------------------------------------
            times for entering data.

  5.  Develop at least two dedicated funding streams--one for tribal 
            nations who wish to develop a plan for addressing MMIW 
            within their jurisdiction and a second dedicated funding 
            stream for non-profit organizations that intend to study 
            and support MMIW, particularly non-profits with survivors 
            and family members on the board of directors.

  6.  Any new MMIW funding for Federal agencies must require the 
            development of protocol guidelines for responding to MMIW. 
            Federal agencies should only receive funding for the 
            development of these guidelines if they have a plan for 
            meaningful consultation with tribal leaders and families of 
            MMIW.

  7.  Require action by all U.S. Attorneys to develop protocols and 
            collaborative efforts with tribal nations for MMIW issues. 
            This should apply even include U.S. Attorneys without 
            tribal lands in their districts, because MMIW cases often 
            arise off reservation, especially in cities. Tribal members 
            travel just as widely as other Americans, but they are not 
            always well served by local police departments far from 
            their ancestral homelands.

  8.  Require Federal law enforcement agencies, including the FBI, to 
            start accurately logging race/tribal affiliation in their 
            database of missing persons.

  9.  Require Federal law enforcement agencies to share information 
            about MMIW with tribal nations. On the basis of comity and 
            respect, if a Native person goes missing outside of tribal 
            jurisdiction, then tribal nations (as sovereigns), are 
            entitled to know if their citizens are missing. This is 
            also an important investigative step in learning more about 
            MMIW.

  10. Require Federal law enforcement agencies to track the number of 
            MMIW reported in their jurisdiction to be published in the 
            required annual Tribal Law and Order Act report.

                               conclusion
    Thank you for allowing to testify today. I am hopeful that new 
attention on a very old problem will finally begin to stem the crisis 
of MMIW. As a Nation, I believe we are better than this. Please support 
the families of MMIW to find their loved ones and bring them home.

                                 ______
                                 

Questions Submitted for the Record to Professor Sarah Deer, University 
                               of Kansas
                  Questions Submitted by Rep. Haaland
    Question 1. As part of your ``recommendations'' in your written 
testimony (suggestion #4), you stated that there should be a ``funding 
stream for non-profit organizations'' to help address Missing and 
Murdered Indigenous Women (MMIW). If Congress allocated money for these 
non-profits, how would that funding help address the issue of MMIW and 
domestic violence in urban areas where 70 percent of the Native 
American population currently reside?

    Answer. I believe this recommendation is actually #5 on my list. In 
terms of non-profit funding, I believe it would be helpful if urban 
Indian centers were eligible for funding, based on the fact that most 
Native people do not currently reside on reservations and many of the 
missing and unsolved murders are reported from urban (or off-
reservation) communities. Urban Indian centers are often the only 
safety net that Native people have and I believe that they are often in 
the best position to help organize a response in those environments. At 
the same time, we want to ensure that tribal governments are not 
excluded from funding opportunities.

    Question 2. What else do you think could be done in urban areas 
with high populations of Native Americans/Indigenous women to help 
address this issue?

    Answer. It would be helpful if the Subcommittee were to hold field 
hearings in some of these urban areas so that Members could hear 
firsthand what families and communities need in order to stem this 
crisis. Based on what I am hearing from families, there is a real 
concern that law enforcement agencies often adopt a position of 
indifference when a Native woman or girl goes missing. More training 
might be useful, but such training should be developed and designed in 
collaboration with Native organizations.

                  Questions Submitted by Rep. Grijalva
    Question 1. In your expert opinion, what is the historical context 
of the MMIW crisis, and how do you think that history exasperates the 
issue to this day?

    Answer. It is difficult to pinpoint an event or time when the 
crisis of MMIW began, because the trafficking and abuse of Native women 
has been ongoing as part of the settler colonial efforts to extinguish 
Native people. Historically, the protection of Native women has not 
been a priority for the United States or local governments. Even though 
the official policy is no longer one of extermination or termination, 
the attitudes and culture remain. Whether conscious or subconscious, 
there remains within much of the law enforcement community a sense that 
MMIW are not worthy of high priority investigations. While there are 
certainly exceptions to the rule, I believe that training for law 
enforcement agencies must include a historical component.

    Question 2. Ideally, what do you feel like is the proper response 
to MMIW from a law enforcement standpoint? (tribal, state, local 
agencies)?

    Answer. Because Native women are highly vulnerable to trafficking 
and homicide, it would be ideal if law enforcement agencies had a more 
immediate response to a report from family and friends. I have heard 
from families that investigations are often delayed for weeks or 
months.

    Question 3. In your written testimony, you highlighted the colonial 
history of Indigenous women. What are the current statistical gaps when 
it comes to Missing and Murdered Indigenous Women?

    Answer. Unfortunately, we have very little data about the 
contemporary crisis. Even state or local agencies that have publicly-
available data about missing adults do not specify whether the person 
is Native or not. Thus, it is hard to gather enough information for a 
national estimate.

    Question 4. What role does tribal sovereignty play in addressing 
this violence?

    Answer. Native women are citizens of tribal nations. Tribal nations 
should be apprised when their citizens go missing and be kept informed 
as to the status of the case. Typically, when a foreign national goes 
missing or is murdered in the United States, it is common courtesy to 
keep their home country informed as to the investigation whenever 
possible. I believe tribal nations should be accorded that same 
courtesy.

    Question 5. Your written testimony states that many Missing and 
Murdered Indigenous Women cases are ``unsolved.'' What does an unsolved 
case mean? What are your recommendations for these unsolved cases as it 
relates to MMIW?

    Answer. By ``unsolved'' I mean there has not been a resolution to 
the incident. When a Native person is reported missing, until that 
person is found, there is no resolution. Families have no closure. 
Cases can go ``cold'' for years. An unsolved murder is one where there 
has been no determination as to the assailant(s), and so no one is held 
accountable for that murder. Again, this leaves families and 
communities reeling from the loss of a valued member of the community 
without any resolution.

    Question 6. Why are police investigations into MMIW cases plagued 
with delays and missteps?

    Answer. I'm not sure we know enough to be able to make 
generalizations about what goes wrong. Anecdotal information from 
families and community members report that searches are delayed for 
weeks--sometimes months. They report indifference from law enforcement 
agencies who often do not make these cases a priority. It can also be 
very difficult to determine which law enforcement agencies (tribal, 
state, or federal) should be the lead investigatory agency.

    Question 7. Your written testimony noted 40 cases of deaths caused 
by police brutality or deaths in custody. Do you have recommendations 
on how to address issues related to police brutality and deaths in 
custody? How does this relate to violence against Indigenous women?

    Answer. There are many ongoing efforts to try to address police 
brutality and deaths in custody for all people of color. While most law 
enforcement officers do not abuse their authority and they treat 
suspects with dignity, there are significant exceptions to this rule. 
Native families have reported that their loved ones have been 
mistreated, abused, and even killed by law enforcement officers. I 
believe there should be better screening for law enforcement officers 
and swifter action when an accusation is levied. This relates to 
violence against Native women because women and girls are often the 
victims of police brutality. This, in turn, makes communities distrust 
law enforcement and thus less likely to trust or engage with law 
enforcement when a loved one goes missing.

                                 ______
                                 

    Mr. Gallego. Thank you, Professor.
    Next, we have the Honorable Ruth Buffalo, State 
Representative from North Dakota House of Representatives 27th 
District.

  STATEMENT OF HON. RUTH BUFFALO, STATE REPRESENTATIVE, NORTH 
  DAKOTA HOUSE OF REPRESENTATIVES 27th DISTRICT, FARGO, NORTH 
                             DAKOTA

    Ms. Buffalo. Good morning. [Speaking native language.] My 
name is Ruth Buffalo Woman Appears. Thank you. It is an honor 
to be here in front of you to share about this important topic.
    I am a member and a citizen of the Mandan, Hidatsa, and 
Arikara Nation and descendent of the Chiricahua Apache. 
Currently, I am representing District 27 in South Fargo. I am a 
newly elected member to the House of Representatives in North 
Dakota, the 66th legislative assembly.
    I want to share a little bit further about my tribal 
heritage. In our communities, in the Hidatsa specifically, we 
are a matriarchal society, so the women carry, pass on the 
clan. I am a member of the Dripping Earth Clan. So, as you can 
tell, when we lose our women, it is a huge hit on our entire 
community.
    We still hang onto some of these matriarchal traditions, 
such as our women sitting during prayer while our men stand 
because the men have such great respect for our women.
    I have introduced four legislative bills which address the 
epidemic of missing and murdered indigenous people and human 
trafficking, and I also want to acknowledge the good work that 
has been done by former Senator Heidi Heitkamp with regards to 
the missing and murdered and also human trafficking.
    In addition, I have brought forward a study resolution to 
further examine the issue of missing and murdered indigenous 
people and human trafficking and a resolution urging Congress 
to pass Savanna's Act. This legislation has passed through the 
North Dakota House and now awaits action in the North Dakota 
Senate.
    It is important to note that the legislation introduced in 
North Dakota is non-gender specific, as we wanted to include 
all genders in using the language ``missing and murdered 
indigenous people.''
    House Bill 1311 would provide training for State's 
Attorneys and law enforcement officers and officials regarding 
missing and murdered indigenous people. The training would be 
provided by the North Dakota Human Trafficking Commission, 
which is comprised of key stakeholders from tribal, state, and 
Federal agencies and organizations in government.
    House Bill 1313 would create a state repository for missing 
persons, including indigenous populations. This bill comes with 
a fiscal note of $75,000 to update the software of the Criminal 
Justice Information System within the Attorney General's 
Office.
    In addition, this bill would address the need for accuracy 
in data collection of missing and murdered indigenous people.
    House Bills 1507 and 1541 will provide human trafficking 
prevention and awareness training to hotels, establishments, 
and schools.
    I wish I had more data to share with you, but the fact that 
I do not is part of the reason why I am here.
    As a resident of Fargo, North Dakota, I found myself on the 
front lines of the search for Savanna in August 2017. Elder 
women from the Turtle Mountain Band of Chippewa asked me to 
lead the search the following day.
    In our culture, when someone asks you to do something, you 
do not say no, especially if a female elder makes the request.
    We began the search on August 27, my birthday. Later that 
day, kayakers found the body of the deceased Savanna Greywind 
in the Red River.
    From that day forward our eyes were opened to the very real 
threat before us, and we formed a local task force in the 
Fargo-Moorhead area dedicated to preventing such tragedies from 
ever happening again.
    And we thought if and when this should ever happen again, 
we did not want to waste time in having to convince law 
enforcement that we are human beings and that we deserve 
justice.
    There cannot be, there must not be, any more stolen 
sisters. We simply cannot tolerate losing any more sisters in 
this way.
    From my experience of being a volunteer searcher, it has 
led me to find solutions. I thought of how Savanna was an 
enrolled member of a federally recognized tribe, but grew up in 
Fargo off of the reservation. From the start of the search, I 
wanted Federal agencies to become involved. After all, she was 
a member of a federally recognized tribe.
    The realities of the situation dictated that we must work 
with local authorities when instances occur outside of the 
reservation.
    One thing that will forever ring in my mind is attending 
the trial and hearing what one of the murderers said that day 
to the police. He told the police, ``She always goes missing,'' 
or, ``she is always taking off. Her parents were just here last 
week looking for her,'' when we knew this statement was false.
    But it raises many questions. Did this comment sway law 
enforcement or not into taking swift action? That is why we 
continue working for justice and for healing our communities.
    Some of the recommendations that I would like to quickly 
mention is a national inquiry with hearings held throughout the 
United States in rural and urban areas; to go to the very 
communities that suffer the loss of their loved ones; to 
include language of missing and murdered indigenous women and 
girls and people into the scope of work within the Office of 
Violence Against Women and the Office of Victims of Crime.
    As a public health professional and researcher, I know data 
tells a story. Without data, there is no clear evidence that a 
problem exists. Hundreds of communities hold stories of truth 
from generation to generation. Our communities know which 
relatives have yet to return to their families. We must help 
have those stories told by giving them tools and resources to 
do so and eventually bringing the lost ones home.
    Thank you for allowing me to testify before you.

    [The prepared statement of Ms. Buffalo follows:]
 Prepared Statement of Representative Ruth Buffalo, North Dakota House 
                    of Representatives, District 27
    Dosha, Mazda nuxxbaagao, Mr. Chairman and members of the Committee. 
My name is Ruth Buffalo, I am a citizen of the Mandan, Hidatsa, and 
Arikara Nation of northwest North Dakota and I represent District 27 in 
south Fargo; I am a newly elected member of the House of 
Representatives in the North Dakota State legislature. I am a public 
health professional and educator.
    I have introduced four legislative bills in the 66th state 
legislative assembly that aim to address the epidemic of Missing and 
Murdered Indigenous People and Human Trafficking. I have also 
introduced a study resolution to further examine the issue of missing 
and murdered indigenous people and human trafficking and a resolution 
urging Congress to pass Savanna's Act. This legislation has passed 
through the North Dakota House and now awaits action in the North 
Dakota Senate.
    It's important to note that the legislation introduced in North 
Dakota is non-gender specific, as we wanted to include people of all 
genders.
    One of these bills seeks law enforcement training, and the other, 
as amended, would create a state repository on missing people including 
indigenous populations. The other two bills would provide human 
trafficking prevention and awareness training to hotel establishments 
and schools.
    HB 1311 would provide training for state's attorneys and law 
enforcement officers and officials regarding missing and murdered 
indigenous people. The training would be provided by the North Dakota 
Human Trafficking Commission which is comprised of key stakeholders 
from tribal, state and Federal agencies, organizations and government.
    HB 1313 would create a state repository for missing persons 
including indigenous populations; this bill comes with a fiscal note of 
$75,000 to update the software of the Criminal Justice Information 
System within the Attorney General's office. This bill would address 
the need for accuracy in data collection of missing and murdered 
indigenous people. According to the Urban Indian Health Institute's 
report on Missing and Murdered Indigenous Women & Girls, 71 percent of 
American Indians/Alaska Native live in urban and non-reservation 
areas.\1\ The issue of Missing and Murdered Indigenous Women and Girls 
is a nationwide crisis, worsened by the fact that it is also a 
nationwide data crisis. The National Crime Information Center reports 
that, in 2016, there were 5,712 reports of missing American Indian and 
Alaska Native women and girls, with only 116 cases logged in the U.S. 
Department of Justice Federal missing persons database.
---------------------------------------------------------------------------
    \1\ Lucchesi, A., & Echo-Hawk, A. (2018, November 14). Missing and 
Murdered Indigenous Women & Girls (Rep.). Retrieved http://
www.uihi.org/wp-content/uploads/2018/11/Missing-and-Murdered-
Indigenous-Women-and-Girls-Report.pdf.
---------------------------------------------------------------------------
    According to the Sovereign Bodies Institute, as related Missing & 
Murdered Indigenous Women & Girls in South Dakota, North Dakota, & 
Montana. There are 296 documented MMIWG cases in these three states 
combined, from 1972 to present. Of these cases, 30 are active missing 
persons cases, 192 are murders, and 74 have unknown status (reported 
missing and unable to confirm if found safe or deceased.) There are 
likely many more cases that we have not yet documented. 157 of these 
cases occurred on reservations, 15 in rural areas, 105 in urban 
centers, and 19 cases have unknown location types.
    I wish I had more data to share with you, but the fact that I don't 
is part of the reason why I' m here.
    As a resident of Fargo, North Dakota, I found myself on the front 
lines of the search for Savanna Lafontaine-Greywind in August 2017. 
Elder women from the Turtle Mountain Band of Chippewa asked me to lead 
the search the following day. In our culture, when someone asks you to 
do something, you don't say no, especially if a woman is making the 
request. I found myself leading the search efforts on August 27, 2018. 
This day also happened to be my birthday. Later that same day, kayakers 
found Savanna's body in the Red River. From that day forward, our eyes 
were opened to the very real threat before us, and we formed a local 
task force in the Fargo Moorhead area dedicated to preventing such 
tragedies from ever happening again. There cannot be--there must not 
be--any more stolen sisters. Not only was our local community affected 
by the murder of Savanna; the entire Nation was shaken. From time to 
time, I can still hear one of my friends calling Savanna's name during 
the search as we combed the shoreline of the Red River.
    My experiences as a volunteer searcher led me to wanting to seek 
solutions. I thought of how Savanna was an enrolled member of a 
federally recognized tribe but grew up in Fargo. From the start of the 
search, I'd wanted Federal agencies to become involved. After all, she 
was a member of a federally recognized tribe. The realities of the 
situation dictated that we must work with local authorities when 
incidents occurred outside of the exterior boundaries of an Indian 
reservation.
    I later attended the trials of Savanna Lafontaine-Greywind's 
murderers. It wasn't until then, I learned of what exactly William 
Hoehn told the police the day Savanna went missing. He told them, ``She 
always leaves, her parents were just up here last week looking for 
her.''
    The police later stated they did not anticipate looking for a body 
nor a baby, instead they checked all modes of transportation, the bus 
and train stations. Could Hoehn's comment have swayed the police? Are 
the stereotypes of our indigenous people perpetuated into implicit 
bias?
    The epidemic of our Missing and Murdered Indigenous People has left 
many of our communities throughout North Dakota and country on high 
alert. From the horrendous crime committed in the murder of Savanna 
Lafontaine-Greywind, a young Indigenous mother who was 8 months 
pregnant, to our indigenous men who go missing.
Recommendations:
    North Dakota and many other states who have introduced MMIW 
legislation have an opportunity to enhance response times and save 
lives. Our focus is prevention and justice. Through data collection we 
will show the need for additional resources for law enforcement 
agencies, etc. Everyone deserves a safe community. I believe through 
the passage of MMIW legislation and comprehensive laws we are sending a 
strong message to predators which will further deter tragic outcomes, 
and move toward keeping our people safer.
    The language of MMIW/P needs to be included in the scope of work 
for the Office on Violence Against Women (OVW) and the Office for 
Victims of Crime (OVC). DV/SA/Stalking/Dating Violence/Human 
Trafficking are currently within the scope of services. Not having MMIW 
included in their scope of work makes even addressing the issue 
difficult, even as it is connected with existing work.
    It's important to look at the pleadings in criminal cases in 
prevention of further MMIW cases.
    Ensuring all local city, county, state and tribal agencies are 
working together is a must.
    As a public health professional and researcher, I know data tells a 
story. Without data, there is no clear evidence that a problem even 
exists. Therefore, it is essential for accurate data reporting and 
swift action be taken by authorities when people go missing. The dearth 
of accurate reporting data in the countless cases of Missing and 
Murdered Indigenous People, in essence, pours fuel onto an already 
blazing fire. Hundreds of communities hold stories of truth from 
generation to generation. Our communities know which relatives have yet 
to return to their families. We must help them tell those stories, by 
giving them the tools and resources to do so, and eventually, bring the 
lost ones home.

                                 ______
                                 

  Questions Submitted for the Record to Representative Ruth Buffalo, 
           North Dakota House of Representatives, District 27

Ms. Buffalo did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                  Questions Submitted by Rep. Haaland
    Question 1. I appreciate the work that you have done in your state 
to address the epidemic of MMIW and human trafficking. I want to assure 
you that I am working on Savannah's Act in the House to move this issue 
forward in Congress. From the state perspective, what complications do 
your law enforcement officials encounter when working on MMIW cases, 
especially in coordinating with tribal law enforcement?

    Question 2. Are these complications further exacerbating the gaps 
in data collection that we see across the board? Also, how does this 
complicate data collection in urban areas where 70 percent of American 
Indians live?

                  Questions Submitted by Rep. Grijalva
    Question 1. What are concrete steps the Federal Government can take 
to enhance tribes' ability to respond to this crisis?

    Question 2. Who should be leading efforts to address this violence, 
and how can the Federal Government support them in doing so?

    2a. How can Congress collaborate with on the ground efforts to 
address this issue? 

    Question 3. What are the cultural aspects that need to be 
considered when working with state and tribal governments on this 
issue?

    Question 4. If you have one recommendation for the Federal 
Government to address this issue, what would it be?

                                 ______
                                 

    Mr. Gallego. Thank you, Representative.
    Next, we would like to introduce Ms. Mary Kathryn Nagle. 
She is a Legal Counsel for the National Indigenous Women's 
Resource Center.

   STATEMENT OF MARY KATHRYN NAGLE, LEGAL COUNSEL, NATIONAL 
 INDIGENOUS WOMEN'S RESOURCE CENTER (NIWRC), LAME DEER, MONTANA

    Ms. Nagle. Thank you.
    Good morning, Chairman Gallego, Chairman Grijalva, Ranking 
Member Paul Cook, and all of the members of the Committee. 
Thank you so much for inviting me here today and for your time 
and consideration of this very important issue.
    I am honored to represent, as Legal Counsel to the National 
Indigenous Women's Resource Center, a national non-profit, 
dedicated to the restoration of tribal sovereignty and 
jurisdiction to protect and save the lives of Native women and 
children.
    The NIWRC has played a critical role in raising awareness 
around the missing and murdered indigenous women crisis here in 
the United States today. The NIWRC has hosted numerous 
educational trainings, briefings on the Hill. They have hosted 
screenings of educational films, held candlelight vigils, and 
collaborated with local grassroots organizations to generate 
support for a national day of awareness for missing and 
murdered Native women and girls.
    Our main office is in Lame Deer, Montana, and so our staff 
directly experienced the losses of both Henny Scott and Hanna 
Harris. This is a crisis that strikes at home, and it strikes 
deep.
    In September 2018, the NIWRC hosted a candlelight vigil at 
the Smithsonian Museum of the American Indian. We were honored 
that Congresswoman Gwen Moore came and spoke about the 
importance of the restoration of tribal jurisdiction, 
supplementing with tribal resources to tribal law enforcement, 
and compelling the Federal Government to take this issue 
seriously and investigate and prosecute cases of murdered and 
missing indigenous women.
    But probably the most impactful moment of that candlelight 
vigil was when Florence Choyou spoke and shared the story of 
her daughter Monica, who was murdered during a domestic 
violence action in the Keams Canyon on the Hopi Reservation.
    As to myself, I am a citizen of the Cherokee Nation. I am 
an attorney, and I am direct descendant of a tribal leader, my 
great-great-great-grandfather who in the 1820s, as speaker of 
our tribal council, worked to create and establish our Cherokee 
Nation Supreme Court and pass a law that criminalized the rape 
of any woman on Cherokee lands regardless of the identity or 
race/citizenship of the perpetrator.
    I am a direct descendant of a tribal leader who understood 
the connection between tribal sovereignty and safety for Native 
women, and that understanding informs and commands the work 
that I undertake today.
    I think all of our written testimony, the testimony of my 
colleagues today, underscores the depth of this crisis, the 
fact that our women are murdered 10 times the national rate on 
reservations.
    In addition to that incredibly high rate of violence, we 
also know, from a statistic of the DOJ National Institute of 
Justice, the majority of violent crimes committed against 
Native women are committed by non-Indians.
    So, even though our members of our own nations and our 
communities are committing these crimes, we have a huge crisis 
of non-Indian perpetrated violence against Native women.
    And because in 1978 the Supreme Court eliminated tribal 
jurisdiction, this has only exacerbated the crisis that, as 
Professor Deer mentioned, has been accumulating over hundreds 
of years since 1492.
    However, when we look at the missing and murdered 
indigenous women crisis, the jurisdictional loophole is a major 
source of the high rates of violence against our women and the 
lack of a response. Because of this Supreme Court decision in 
1978 and the current legal framework, for a tribal nation to 
undertake an arrest and then prosecute a perpetrator who has 
murdered or kidnapped a Native woman, the tribal government 
must, for jurisdictional purposes, determine that the identity 
of the perpetrator is a citizen of a federally recognized 
tribe, an Indian. And if they cannot determine that, that 
paralyzes tribal law enforcement and the tribal government from 
working to protect their own citizens.
    This is the case so often. It was the case with Olivia Lone 
Bear. When she went missing in October 2017, her tribal nation 
could not determine whether or not it had jurisdiction simply 
because they could not identify the identity of the 
perpetrator. And although her brother, Matthew Lone Bear, 
repeatedly demanded that all state, tribal, and Federal 
officials act immediately to locate her and to search for her, 
it was not until 10 months later, after he had been asking for 
10 months for the Federal authorities to search all bodies of 
water on the reservation, that they found her deceased in her 
truck at the bottom of Lake Sakakawea.
    Often when one of our women or girls goes missing, it is 
our family members and our friends who undertake the search to 
rescue her, not law enforcement. That has to change.
    So, it is not only a jurisdictional issue. It is the lack 
of response from the Federal authorities, who oftentimes under 
the current legal framework do have jurisdiction and yet do 
nothing.
    Another major issue that I have written much about in my 
written testimony and what the NIWRC recommends is more access 
to the National Criminal Information System, NCIC. Currently, 
today, only 47 tribal nations have access to this database.
    This database is a critical tool any time a Native woman 
goes missing or is murdered for justice, and right now the lack 
of access that tribes have with only 47 of the 573 federally 
recognized tribes having access is a huge impediment.
    Finally, lack of resources. Many of our tribal nations do 
not have adequate funding for their own law enforcement, as 
well as victim services. As NIWRC has stated publicly for many 
years and advocated, we are working so hard to fund victim 
services because we have to deal with the crisis of domestic 
violence and sexual assault. Oftentimes those crimes escalate 
to murder and homicide.
    So, we need funding for our victim services and our tribal 
law enforcement.
    Thank you so much for the opportunity to speak today.

    [The prepared statement of Ms. Nagle follows:]
 Prepared Statement of Mary Kathryn Nagle, National Indigenous Women's 
                            Resource Center
    Dear Chairman Gallego, thank you for the opportunity to testify on 
the crisis that our women and children currently face.
    I am honored to represent the National Indigenous Women's Resource 
Center (NIWRC). The NIWRC is a Native non-profit organization that was 
created specifically to serve as the National Indian Resource Center 
(NIRC) Addressing Domestic Violence and Safety for Indian Women. The 
NIWRC is dedicated to reclaiming the sovereignty of Tribal Nations and 
safeguarding Native women and their children. Through public awareness 
and resource development, training and technical assistance, policy 
development, and research activities, the NIWRC provides leadership 
across the Nation to show that offenders can and should be held 
accountable and that Native women and their children are entitled to: 
1) safety from violence within their homes and in their community; 2) 
justice both on and off tribal lands; and 3) access to services 
designed by and for Native women based on their tribal beliefs and 
practices.
    As a citizen of the Cherokee Nation, I understand the unique 
relationship between sovereignty and safety for Native women. And as an 
attorney representing the NIWRC, I have filed numerous briefs in 
Federal courts, including the U.S. Supreme Court, addressing the 
connection between sovereignty and safety for Native women.
    As this Subcommittee is aware, there are countless examples of 
missing and murdered Native women and children where insufficient 
resources and lack of clarity on jurisdictional responsibilities have 
exacerbated efforts to locate those missing. On December 12, 2018, 
Kimberly Loring Heavy Runner appeared before the Senate Committee on 
Indian Affairs to share her sister's story.\1\ Her sister, Ashley 
Loring Heavy Runner, a 22-year-old Blackfeet woman, disappeared on June 
12, 2017. Despite Heavy Runner's family finding evidence tied to her 
disappearance, the family later learned that the evidence had not been 
processed, nor had the scene where the evidence was discovered been 
investigated. The family encountered obstacles when trying to obtain 
information or support from the Blackfeet Tribal Law Enforcement or the 
Bureau of Indian Affairs. And, it took 9 months for the Federal Bureau 
of Investigation to become involved with the case. Information 
discovered in the early days after someone goes missing is critical to 
ensuring their safety, but in the case of Ms. Loring Heavy Runner, 
leads were dropped early on, and she has not been found.
---------------------------------------------------------------------------
    \1\ Oversight Hearing on ``Missing and Murdered: Confronting the 
Silent Crisis in Indian Country'' Before the S. Comm. on Indian 
Affairs, 115th Cong. (Dec. 12, 2018) (testimony of Kimberly Loring 
Heavy Runner), https://www.indian.senate.gov/sites/default/files/
Kimberly%20Loring%20Heavy%20Runner%20Final.pdf.
---------------------------------------------------------------------------
    In the case of Misty Upham, another member of the Blackfeet Nation 
who went missing on October 5, 2014, the local police department in 
Auburn, Washington, not only failed to assign a detective to the case 
until October 7, but failed to commence a search for Ms. Upham 
altogether.\2\ Indeed, Upham's body was found on October 16--over a 
week after her disappearance was reported--not because of law 
enforcement efforts, but because of a search party organized by Upham's 
family. In this case, Misty Upham went missing on the Muckleshoot 
Reservation, and her disappearance could have been investigated by the 
FBI, however, it was not. Instead, the case went largely uninvestigated 
by the local police department.
---------------------------------------------------------------------------
    \2\ Kristen Millares Young, Misty Upham: the tragic death and 
unscripted life of Hollywood's rising star, The Guardian (June 30, 
2015, 7 AM), https://www.theguardian.com/global/2015/jun/30/misty-
upham-native-american-actress-tragic-death-inspiring-life.
---------------------------------------------------------------------------
    And recently, a 14-year-old girl from Northern Cheyenne, Henny 
Scott, was discovered nearly 3 weeks after she last spoke to her 
mother, Paula Castro, on December 7, 2018. The Bureau of Indian Affairs 
did not enter her into the missing person database until December 
13,\3\ and the Montana Department of Justice did not issue a Missing 
and Endangered Person Advisory for Scott until December 26. The body of 
Henny Scott was discovered on December 28 after a search party composed 
mostly of volunteers began searching for her. Scott's mother has 
expressed frustration with how her daughter's case was handled by BIA 
officials in Lame Deer when she was convinced her daughter was 
missing.\4\
---------------------------------------------------------------------------
    \3\ Mike Kordenbrock, Family, community filled with questions after 
teen's death on Northern Cheyenne Reservation, Billings Gazette (Dec. 
29, 2018), https://billingsgazette.com/news/state-and-regional/crime-
and-courts/family-community-filled-with-questions-after-teen-s-death-
on/article_768c2bb9-189e-51f7-bdb3-4c274bc86ea7.html.
    \4\ Kayla Desroches, Northern Cheyenne Hold Funeral For Henny 
Scott, Montana Public Radio (Jan. 7, 2019), https://www.mtpr.org/post/
northern-cheyenne-hold-funeral-henny-scott.
---------------------------------------------------------------------------
    There is not sufficient space to recount all of the stories of 
missing and murdered indigenous women (MMIW) in the United States in 
this written testimony. But the stories of Ashley, Misty, and Henny 
constitute an important reminder that this crisis is more than data. 
These are our sisters, mothers, nieces, and daughters. Their safety 
commands your utmost attention and concern. We commend you for holding 
this hearing, and we hope you will seriously consider legislation that 
effectively addresses this crisis.
 the organizing efforts of niwrc to address the crisis of missing and 
                       murdered indigenous women
    As a part of a national movement, the NIWRC has been heavily 
involved with raising awareness and organizing around the issue of 
MMIW. Many members of the NIWRC Board of Directors and staff have 
organized and advocated to increase the safety of Native women since 
the 1990s. The relationship of NIWRC to this issue is based in this 
collective history.
    In 2005, the movement for the safety of Native women led the 
struggle to include a separate title within the Violence Against Women 
Act (VAWA), or what is now codified as Title IX, ``Safety for Native 
Women.'' In creating Title IX, Congress made several findings, 
including that: homicide was the third-leading cause of death for 
Indian females aged 15-34 (during the period of 1979-1992), with 75 
percent of those constituting homicides committed by family members or 
acquaintances. Further statistics by the U.S. Department of Justice 
(USDOJ) National Institute of Justice (NIJ) found that American Indian 
women face murder rates that are more than 10 times the national 
average.\5\
---------------------------------------------------------------------------
    \5\ Perrelli, T. (July 14, 2011). Statement of Associate Attorney 
General Perrelli before the Committee on Indian Affairs on Violence 
Against Native American Women [citing a National Institute of Justice-
funded analysis of death certificates]. Washington, DC. Available from: 
www.justice.gov/iso/opa/asg/speeches/2011/asg-speech-110714.html.
---------------------------------------------------------------------------
    Additionally, in both the 2005 reauthorization of VAWA and the 
Tribal Law and Order Act (TLOA) of 2010, the National Congress of 
American Indians (NCAI) Task Force on Violence Against Women worked to 
include a mandate for the Attorney General to grant direct access to 
Indian tribes to enter and obtain information from the National 
Criminal Information Center (NCIC) national files. The struggle to win 
direct access for Indian tribes to NCIC files was and continues to be a 
priority because these files, such as the national protection order 
file, sex offender file, missing persons, and other files, are 
essential to the safety of Native women. The lack of direct NCIC access 
is a reflection of the barriers created by Federal Indian law, and the 
fact that Native women remain separated from all other populations of 
women in the United States. As sovereign nations, Indian tribes should 
have the full authority to protect their women and enter information 
into and obtain information from the NCIC. The disproportionate 
statistics among American Indian and Alaska Native (AI/AN) women 
combined with the on-going missing and murdered reports across Indian 
Country, the lack of NCIC access for tribes, and other related barriers 
to safety fuel our on-going work around this critical issue. While 
advances have been made over the years through the launch of the USDOJ 
Tribal Access Program (TAP), it is important to note that TAP is not 
currently available to all tribes and lacks a permanent funding 
authorization.
    Our on-going efforts to address the critical issues regarding MMIW 
include leading events and activities locally, regionally, nationally 
and internationally. For example, the NIWRC has contributed by: 
coordinating Conversations With the Field (CWTF) discussions, 
organizing a hill briefing, hosting a reception on Capitol Hill, 
hosting educational screenings of Wind River with accompanying panel 
discussions, providing testimony at international advocacy forums, 
educating tribal leaders prior to each annual tribal consultation, 
participating in awareness activities/marches/vigils, creating 
webinars, creating a toolkit, organizing with grassroots organizations 
around the support of a National Day of Awareness for Missing and 
Murdered Native Women and Girls, and, last but not least, providing 
countless updates during various NIWRC and partner conferences, 
including NCAI Violence Against Women Task Force meetings. The NIWRC 
has also contributed numerous articles in NIWRC's Restoration Magazine 
since 2008 concerning the issue of MMIW, and I have submitted one such 
article along with my written testimony. (Please see attachment, ``MMIW 
and the Need for Preventative Reform''). The NIWRC's Restoration 
Magazine is an incredible resource on many issues related to ending 
domestic violence and sexual assault against Native women, as well as 
MMIW.
    The CWTF concept was first developed in 2003 as a facilitation tool 
for organizing a national conversation of the movement including 
building a national platform of current and emerging issues of concern 
and recommendations to increase the safety of Native women. The CWTF 
engagements involved meetings with grassroots advocates, community 
members, tribal leaders, tribal coalitions and allies. In 2017, the 
NIWRC held a series of CWTF: Understanding the Issue of Missing & 
Murdered Native Women and Organizing a Response at NIWRC's Specialty 
Institute, the 2017 NCAI Mid-Year Convention, and at a Village 
Engagement Training in Kotzebue, AK. The CWTF discussions provided an 
overview about the issue of Missing and Murdered Native women, 
including ways to organize a response given that disappearances are 
often connected to not only domestic and sexual violence, but other 
forms of violence.
    In 2017, the NIWRC collectively organized with the national 
movement for the safety of Native women to support a National Day of 
Awareness for Missing and Murdered Native Women and Girls for both 2017 
and 2018, and the NIWRC is currently working on the effort for 2019. 
Past efforts included support from over 250 tribal, state, and national 
organizations. May 5, 2017, marked the first national day of awareness 
with tribal awareness and justice walks taking place across the United 
States. The NIWRC's 2018 efforts included a social media campaign, 
which reached millions online globally.
    Additionally, in 2017, the NIWRC sponsored a MMIW hill briefing in 
partnership with the Indian Law Resource Center (ILRC) and the Alaska 
Native Women's Resource Center (AKNWRC), which focused on ``Moving 
Ahead to Increase the Safety of American Indian and Alaska Native 
Women, Efforts to Address Missing and Murdered Native Women and 
Girls.'' In addition to remarks offered by our panelists, the NIWRC 
shared statistics from the NIJ report, Violence Against American Indian 
and Alaska Native Women and Men: 2010 Findings from the National 
Intimate Partner and Sexual Violence Survey and showed the NIJ video, 
Violence Against American Indian and Alaska Native Women and Men. The 
NIWRC further provided an overview of missing and murdered Native women 
along with the resolution, calling for May 5th as a National Day of 
Awareness for Missing and Murdered Native Women and Girls. The NIWRC's 
Board Chair, Cherrah Giles, provided closing remarks noting the 
importance of May 5th as a time to commemorate and honor Indian women 
who have gone missing or have been murdered.
    In February 2018, the NIWRC and several partners successfully 
hosted a reception and an event: ``Understanding the Crisis of Missing 
and Murdered Native Women'' at the Capitol Visitor Center in 
Washington, DC. The event coincided with NCAI's Executive Council 
Winter Session and was partnered with NCAI, the National Indian Gaming 
Association, the ILRC, the StrongHearts Native Helpline, the AKNWRC, 
the Tunica-Biloxi Economic Development Corporation, the Tunica-Biloxi 
Tribe, the Cheyenne River Sioux Tribe, and the Shakopee Mdewakanton 
Sioux Community. We also hosted a briefing to discuss MMIW issues and 
followed the event with a screening of Wind River. The event was well 
attended by Hill staffers, tribal leaders, and advocates from across 
the country who are actively engaged in addressing the issue of 
violence against Native women.
    Through our partnership with the Alaska Native Women's Resource 
Center and Healing Native Hearts Tribal Coalition, we have supported 
the development of public service announcements and a video documentary 
on Missing and Murdered Indian women, which have not yet been publicly 
distributed, but Tami Truett Jerue (Executive Director, AKNWRC) will 
share one of the PSAs with the Committee.
    In September 2018, the NIWRC hosted a vigil at the National Museum 
of the American Indian which Representative Gwen Moore, myself, 
Caroline LaPorte (NIWRC Senior Native Affairs Advisor), Juana Majel 
Dixon (NCAI Task Force on Violence Against Native Women Co-Chair), 
Carmen O'Leary (NIWRC Board Vice-Chairwoman and Executive Director of 
the Native Women's Society of the Great Plains) and Leanne Guy (NIWRC 
Board Secretary and Executive Director of the Southwest Indigenous 
Women's Coalition) spoke. Most impactful however, was when Florence 
Choyou shared the story of her daughter Monica who was murdered during 
a domestic violence incident in Keams Canyon on the Hopi Reservation. 
The event concluded with a candlelight vigil.
    As was stated at the event held in September, the crisis of missing 
and murdered Native women in the context of gender-based violence is a 
result of legal barriers rooted in the Federal legal framework. This 
on-going crisis has been raised by tribal leaders at every VAWA 
mandated government-to-government annual consultation since 2006. A 
strong national response is needed to respond to the countless reports 
of missing and murdered Native women and girls. Tribal nations and 
family members continue to witness daily reports of another sister, 
mother, daughter, granddaughter, relative, or community member lost to 
violence, which sends shock waves across all of Indian Country. The 
NIWRC, with continued grassroots advocacy efforts and in close 
collaboration with our partners, will continue to raise awareness and 
work toward systemic change to remove the legal barriers that prevent 
tribal nations from prosecuting the violent perpetrators who murder and 
kidnap their Native women citizens. But we wish for a day when we do 
not have to.
the niwrc tribal community response toolkit for action: an overview to 
               assist communities prepare to address mmiw
    The need for a response to the urgent crisis of MMIW in the United 
States is very clear. Until recently the issue of MMIW has not been 
included in most federally funded grant programs impacting violence 
against women. Because NIWRC is primarily federally funded, most of our 
work in this area has been undertake using non-Federal funding or with 
our volunteer time. But, we understand the importance of responding at 
a tribal, state, national and international level to this crisis. The 
NIWRC also understands the lack of educational awareness and general 
lack of response from law enforcement agencies. The NIWRC's main office 
is located in Lame Deer, Montana, and our staff experienced the 
disappearance and losses of Henny Scott and Hannah Harris directly as 
members of that community. In addition, many NIWRC Board Members and 
staff have personally suffered the loss of family and community 
members.
    At the time of these tragic losses, the NIWRC, using non-Federal 
funds, took very basic steps to offer assistance to tribal communities 
to address the crisis of MMIW. The most direct support the NIWRC could 
provide at the time was a community response toolkit for action 
providing an overview, not a comprehensive guide, of issues to address 
if a woman went missing.
    Based on the many difficult lessons from the disappearances and 
murders of women, the NIWRC summarized key points for tribes and 
communities to consider. The toolkit encouraged communities to prepare 
protocols based on an understanding that domestic and sexual violence 
occurs on a spectrum of abusive behavior and can include abduction and 
murder. Tribes were further instructed to take immediate action, noting 
the quicker the response, the faster the victim may be located and help 
may be provided.

    The Tribal Community Response Toolkit for Action included a basic 
overview of lessons responding to cases of MMIW. It encouraged 
communities to:

    <bullet> Develop a response before a disappearance occurs;

    <bullet> Contact law enforcement immediately as soon as a 
            disappearance occurs;

    <bullet> Document and track events--dates and times are essential;

    <bullet> Issue an alert immediately--a press release, radio 
            announcement, social media post;

    <bullet> Organize community actions--a vigil, search, justice walk, 
            or march to provide a positive anchor for family and 
            community to support the woman who is missing.

    The disappearance of every Native woman requires an immediate 
response. The hours and minutes following a disappearance are critical. 
In order to respond immediately to a disappearance, the NIWRC 
recommends that advocacy programs develop protocols. These protocols 
should provide guidance to programs about coordinating with law 
enforcement agencies. The NIWRC continues to organize on this issue and 
will provide additional materials to address the crisis of MMIW.
policy recommendations to address murdered and missing indigenous women
    MMIW occurs for a variety of reasons, some of which are outside of 
the scope of gender-based violence. However, the NIWRC is dedicated to 
addressing gender-based violence in Indian Country, and therefore it is 
in this capacity and through this lens that we are before you 
testifying.
    To that point, the NIWRC considers its policy reform advocacy 
surrounding the response to missing and murdered Indian women in 
connection with the five other crimes identified in VAWA Title IX--
domestic violence, dating violence, sexual assault, stalking and sex 
trafficking. Native women experience a continuum of violence, with MMIW 
at the extreme end of the continuum. It is not an issue that can be 
addressed in isolation, but rather needs to be seen as one 
manifestation of the violence that threatens Native women and girls 
throughout their lifetimes. In doing so, the policy recommendations 
that we put forward relate heavily to reforms that are needed in the 
context of gender-based violence. In the context of gender-based 
violence, the NIWRC's response to MMIW centers on five things: 
jurisdiction to handle cases at the local tribal level; the resources 
for victim services which would provide meaningful interventions for 
survivors of gender-based violence; improving access to Federal 
criminal databases; establishing a standard protocol in consultation 
with tribes to respond to MMIW cases; and improving data collection.
    It is necessary to state first that tribes need additional 
dedicated resources to support the development of local, tribal 
responses to MMIW cases. If tribes have the resources and authority to 
respond to these crimes before they escalate in seriousness and 
lethality, at least some, if not many, potential MMIW cases would have 
a meaningful intervention prior to fatal escalation.

    The NIWRC supports the following to address the injustices of 
missing and murdered Indian women:

  1.  Focus on prevention by addressing underlying infrastructure 
            concerns as represented by tribal leaders, advocates and 
            survivors. Namely, address the current housing and shelter 
            deficiency that exist in tribal communities and develop an 
            understanding of the issue of MMIW as it pertains to 
            children who age out of foster care;

  2.  We maintain that a local tribal response is the best response. 
            Therefore, where MMIW cases have a gender-based violence 
            component, it is necessary to consider adopting legislation 
            that would strengthen the local tribal response. Thus, we 
            again propose that Congress enact legislation to strengthen 
            tribal sovereignty by addressing the remaining 
            jurisdictional gaps with respect to the Special Domestic 
            Violence Criminal Jurisdiction (SDVCJ) provisions in the 
            Violence Against Women Act (VAWA) by adopting provisions in 
            VAWA 2019 that are similar to those in the Native Youth and 
            Tribal Officer Protection Act and in the Justice for Native 
            Survivors Act. Congress should also enact legislation to 
            address the issue of implementation for tribes who have 
            Restrictive Claims Settlement Acts (such as Maine and 
            Alaska);

  3.  Expand and create a dedicated funding stream to support permanent 
            authorization for the Department of Justice's Tribal Access 
            Program (TAP) to ensure that all tribes have access to 
            Federal Criminal Justice Information Service systems;

  4.  Recognize the need for tribal, federal, and state responses to 
            cases of missing and murdered Native women and girls, 
            including development of local and inter-jurisdictional 
            protocols and establish standardized protocols based on 
            best practices, in consultation with tribal governments as 
            mandated by VAWA, and improve data collection without 
            hampering funding for tribal governments and tribal 
            programs;

  5.  Establishing permanent funding for victim services in tribal 
            communities is key. Set aside resources for local, tribal 
            responses to MMIW, such as a permanent tribal Victims of 
            Crime Act (VOCA) set aside for tribal victim assistance and 
            compensation programs;

  6.  Address the unique jurisdictional challenges of Alaska Tribes and 
            support a pilot project for Alaska Tribes to exercise SDVCJ 
            over non-Native perpetrators committing acts of domestic 
            and sexual violence; and

  7.  Address the long-standing resource disparity Indian tribes face 
            when funding their tribal victim advocacy and tribal 
            justice services.

   policy recommendations to address murdered and missing indigenous 
   women: expand the usdoj, tribal access program and access to ncic
    One of the largest obstacles to addressing the crisis of Murdered 
and Missing Indigenous Women have been the barriers Indian tribes face 
in accessing national crime databases (Please see attachment, ``MMIW 
and the Need for Preventative Reform'').
    VAWA 2005 and the Tribal Law & Order Act of 2010 both included 
provisions directing the Attorney General to permit Indian tribes to 
enter information into and obtain information from Federal criminal 
information databases. Indian tribes have raised this issue for years. 
In response to these concerns, in 2015, the USDOJ announced the Tribal 
Access Program for National Crime Information, which provides eligible 
Indian tribes with access to the Criminal Justice Information Services 
systems.
    Under TAP, tribes have successfully begun entering information 
directly into the Federal databases, resulting in nearly 600 sex 
offender registrations and over 550 sex offender check-ins, nearly 300 
instances of data entry that would prohibit someone from being able to 
purchase a firearm, over 1,000 orders of protection entered or 
modified, and over 4,200 fingerprint-based record checks for civil 
purposes that include employment, tribal housing placement and 
personnel/volunteers who have regular contact with or control over 
Indian children. These are the sorts of achievements that prevent the 
escalation from domestic violence to homicide, and serve to assist law 
enforcement in the apprehension of a suspect before he commits yet 
another crime that could result in the murder or kidnapping of a Native 
woman.
    As of September 2018, TAP has been deployed to 47 Tribal Nations. 
With 573 federally recognized Indian tribes in the United States, 47 is 
simply not enough.
    A dedicated funding stream should be created for expanding the TAP 
program and making it available to all interested tribes who meet the 
requirements. All Indian tribes should have the ability to access 
Federal databases not only for the purpose of obtaining criminal 
history information for criminal or civil law purposes, but also for 
entering protection orders and other relevant information, including 
NICS disqualifying events, into the databases.
                               conclusion
    Missing and Murdered Indigenous Women and Girls is a crisis that 
threatens the very foundations of our tribal governments and Native 
people. It is a complicated issue that is born out of problems we did 
not create. We are being asked to solve issues that stem from hundreds 
of years of colonization and genocide, and so the changes that we are 
recommending today are incremental and do not replace the full 
restoration of inherent tribal authority to govern our people. Tribal 
sovereignty and safety for Native women are wholly intertwined, and we 
wish to close by reminding Congress of their obligation to increase and 
support that sovereignty. Thank you for the opportunity to testify on 
the crisis that our tribal governments face in protecting our women and 
children.

                                 *****

The following documents were submitted as supplements to Ms. Nagle's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --The National Congress of American Indians--Resolution #PHX-16-
            077, Title: Addressing Crisis of Missing and Murdered 
            Native Women.

    --Restoration Magazine, Volume 16, Issue 1, February 2019, National 
            Indigenous Women's Resource Center, ``MMIW and the Need for 
            Preventative Reform,'' by Caroline LaPorte, Senior Native 
            Affairs Advisor, NIWRC.

                                 ______
                                 

  Questions Submitted for the Record to Mary Kathryn Nagle, National 
                   Indigenous Women's Resource Center
                  Questions Submitted by Rep. Haaland
    Question 1. In your testimony, you stated that there are resources 
needed for victim services which would provide meaningful interventions 
for survivors of gender-based violence. What types of programs would be 
most effective to address this? Is the funding needed in Indian 
Country, urban areas, or both?

    Answer. First, it is critical to have tribal programs in place that 
provide meaningful interventions to Indian victims before domestic and 
sexual violence, including sex trafficking, escalates to abductions, 
homicide or murder. Funding for such services is needed in Indian 
Country and urban areas. Less than one-half of all Indian tribes 
receive funding to serve victims of crimes enumerated under the 
Violence Against Women Act (VAWA). The vast majority of Indian tribes 
lack any services for victims and many of these tribes are 
geographically isolated in rural or remote areas. Generally more 
funding is available for victim services programs in urban areas than 
for Indian tribes. Many tribes continue to serve their people wherever 
they are located, including urban areas, with what limited resources 
they have.
    In past reauthorizations of VAWA and the Family Violence Prevention 
and Services Act (FVPSA), Congress created programs for Indian tribes. 
These programs and resources have made a difference in the lives of 
Indian victims and should continue to be reauthorized.
    However, the funding for tribal services remains insufficient. 
According to the National Institute of Justice, 38 percent of Indian 
victims were unable to receive necessary services, including medical 
care and legal services.\1\ Resources like the StrongHearts Native 
Helpline, a culturally appropriate, confidential service for Native 
Americans affected by domestic violence and dating violence, have found 
that there is a severe tribal resources disparity that is a barrier for 
tribal governments limiting how and what advocacy and justice services 
they are able to develop and provide their citizens and non-Indian 
residents.
---------------------------------------------------------------------------
    \1\ Andre B. Rosay, Violence Against American Indian and Alaska 
Native Women and Men: 2010 Findings from the National Intimate Partner 
and Sexual Violence Survey. Washington, DC: U.S. Dept. of Justice, 
National Institute of Justice, 2016, NCJ 249736.
---------------------------------------------------------------------------
    This resource disparity is, in large part, due to the fact that 
tribes did not have direct access to the Crime Victims Fund (CVF) 
through the Victims of Crime Act (VOCA) until last year. Though the FY 
18 Omnibus Spending Bill includes a 3 percent set aside for tribal 
governments, a permanent fix is needed. There must be a government-to-
government funding stream legislatively established for tribal 
governments accessing the CVF. Critical resources like the StrongHearts 
Native Helpline, Tribal Domestic Violence and Sexual Assault 
Coalitions, tribally-run or Native-based shelter and sexual assault 
services, services designed to address sex trafficking, tribal housing, 
legal services, comprehensive medical and forensic services, mental 
health services, services for Native children and youth affected by 
domestic and sexual violence, other culturally appropriate programs and 
services, and technical assistance supporting tribal response 
development are absolutely vital to any meaningful response to violence 
in tribal communities. The current funding available in Indian Country 
is inadequate to address these needs--from the provision of basic, 
emergency services and responses to more comprehensive, long-term 
services--and is a breach of the Federal trust responsibility to assist 
Indian tribes in safeguarding the lives of Indian women.\2\ Without 
adequate Federal assistance through resources for Indian tribes, Indian 
women will continue to go missing and be murdered at the highest rates 
in the country.
---------------------------------------------------------------------------
    \2\ 34 U.S.C. Sec. 10452 Note.
---------------------------------------------------------------------------
    The crisis of MMIW in urban areas deserves attention. The Urban 
Indian Health Institute (``UIHI''), based in Seattle, Washington, 
recently conducted research across 71 urban areas and cities with a 
significant Native population.\3\ The Institute's findings are 
remarkable and alarming and provide a partial view of the barriers 
facing Indian women vulnerable to murder and abduction. The majority of 
urban area law enforcement agencies fail to keep data or records to 
indicate if and when a Native woman is murdered or missing within their 
jurisdiction.\4\ The UIHI Report called for reforms around the 
experiences of urban Indians, including funding to ensure proper data 
collection.
---------------------------------------------------------------------------
    \3\ The full report and findings can be found here: http://
www.uihi.org/wp-content/uploads/2018/11/Missing-and-Murdered-
Indigenous-Women-and-Girls-Report.pdf.
    \4\ Missing and Murdered Indigenous Women & Girls, http://
www.uihi.org/wp-content/uploads/2018/11/Missing-and-Murdered-
Indigenous-Women-and-Girls-Report.pdf (2018).
---------------------------------------------------------------------------
    Where the reforms in Indian Country are rooted in the Federal trust 
responsibility to assist Indian tribes in safeguarding the lives on 
Indian women, the reforms in urban areas must come from city and state 
governments that have the authority to respond and responsibility for 
public safety within their jurisdictions. Unlike Indian Country, city 
and state governments have the infrastructure and resources to develop 
their responses and services in partnership with tribal governments and 
organizations, including urban Indian centers. In addition, because 
it's not unusual for Indian peoples to travel between urban areas and 
tribal lands, cross jurisdictional agreements would maximize efforts to 
prevent abductions and homicides, including ensuring comity and full 
faith and credit of tribal court orders, including orders issued from 
CFR Courts.
    Perhaps the Subcommittee would consider supporting pilot projects 
with existing state and local government funding (e.g., VAWA, Byrne, 
COPS, VOCA) that would support the development of urban justice 
responses and advocacy services to the issue of MMIW, including cross 
jurisdictional agreements with Indian tribes and partnerships with 
urban Indian centers. Additional funding for Indian tribes could focus 
on the expansion of existing domestic and sexual violence tribal 
justice responses and advocacy services to address prevention of 
abductions and homicides.

    Question 2. You mentioned that to address this issue, there needs 
to be improved access to Federal criminal databases. Can you explain 
the difference between the various available Federal data systems and 
which one would be the best central point for data collection for MMIW?

    Answer. It is critical that just like state and local governments, 
tribal governments have equal access to the National Criminal 
Information Center (NCIC) database maintained by the FBI. In fact, 
given the public safety challenges such as MMIW, this Congress has the 
opportunity to ensure tribal governments have the access they need to 
prevent any more Indian women going missing and being murdered. The 
NCIC database currently consists of 21 files of data. There are seven 
property files containing records of stolen articles, boats, guns, 
license plates, parts, securities, and vehicles. There are 14 persons 
files, including: Supervised Release; National Sex Offender Registry; 
Foreign Fugitive; Immigration Violator; Missing Person; Protection 
Order; Unidentified Person; Protective Interest; Gang; Known or 
Appropriately Suspected Terrorist; Wanted Person; Identity Theft; 
Violent Person; and National Instant Criminal Background Check System 
(NICS) Denied Transaction. The system also contains images that can be 
associated with NCIC records to help agencies identify people and 
property items. The Interstate Identification Index, which contains 
automated criminal history record information, is accessible through 
the same network as NCIC.
    One of the largest obstacles to addressing the crisis of murdered 
and missing Indian women have been the barriers Tribal Nations face in 
accessing national crime databases. For instance, without access to 
NCIC, Tribal Nations are unable to enter the name of one of their 
citizens if and when she goes missing. This means that other Federal 
and state law enforcement agencies will not be aware that she is 
missing, and ultimately it means she is less likely to be located and 
her life, most likely, will not be saved.
    VAWA 2005 and the Tribal Law & Order Act of 2010 both included 
provisions directing the Attorney General to permit Tribal Nations to 
enter information into and obtain information from Federal criminal 
information databases. Tribal Nations have raised this issue for years. 
In response to these concerns, in 2015, DOJ announced the Tribal Access 
Program for National Crime Information (TAP), which provides eligible 
Tribal Nations with access to the NCIC systems.
    Under TAP, tribes have successfully begun entering information 
directly into the Federal databases, resulting in nearly 600 sex 
offender registrations and over 550 sex offender check-ins, nearly 300 
instances of data entry that would prohibit someone from being able to 
purchase a firearm, over 1,000 orders of protection entered or modified 
and over 4,200 fingerprint-based record checks for civil purposes that 
include employment, tribal housing placement and personnel/volunteers 
who have regular contact with or control over Indian children. These 
are the sorts of achievements that prevent the escalation from domestic 
violence to homicide, or serve to assist law enforcement in the 
apprehension of a suspect before he commits yet another crime that 
could result in the murder or kidnapping of a Native woman.
    As of September 2018, TAP has been deployed to 47 Tribal Nations. 
While we celebrate this change, the Federal trust responsibility to 
assist Indian tribes in safeguarding the lives of Indian women extends 
to all 573 federally recognized Indian tribes, so we must work to grant 
access to 526 more tribal governments.
    A dedicated funding stream should be created for expanding the TAP 
program and making it available to all interested tribes who meet the 
requirements. TAP is the best central point for data collection for 
MMIW. All Tribal Nations should have the ability to access Federal 
databases not only for the purpose of obtaining criminal history 
information for criminal or civil law purposes, but also for entering 
protection orders and other relevant information, including NICS 
disqualifying events, into the databases.
    I want to close NIWRC's response to your question, Representative 
Haaland, with the words of one mother Florence Choyou and her story 
(attached) of her daughter's murder:

        The man who violently took Monica's life received 3 years and 
        will be released soon. Before coming to our reservation, he was 
        banished from two other nearby reservations for violence. If we 
        had only known of his violence, she might still be alive. The 
        tribal registry might have saved her life.\5\
---------------------------------------------------------------------------
    \5\ Jacqueline R. Agtuca, Safety for Native Women: VAWA and 
American Indian Tribes, NIWRC, 2014.

                  Questions Submitted by Rep. Grijalva
    Question 1. What programs or initiative is your organization or 
other organizations currently developing to address the MMIW issue?

    1a. How is your organization collaborating with local tribal groups 
or coalitions?

    Answer. The NIWRC's on-going efforts to address MMIW include 
leading events and activities locally, regionally, nationally and 
internationally. Partnerships with the following organizations and many 
others identified below have been key to the groundswell of attention 
and activity: the Alaska Native Women's Resource Center, National 
Congress of American Indians, Indian Law Resource Center, National 
Resource Center on Domestic Violence, and tribal domestic violence and 
sexual assault coalitions including the Native Women's Society of the 
Great Plains and Healing Native Hearts Coalition.

    The list below is not exhaustive, but provides some of what NIWRC 
has done because of the need:

    <bullet> conducted Conversations With the Field (CWTF),

    <bullet> organized hill briefings,

    <bullet> hosted a reception on Capitol Hill,

    <bullet> hosted several educational screenings of Wind River with 
            accompanying panel discussions,

    <bullet> provided testimony at international advocacy forums,

    <bullet> educated tribal leaders at National Congress of American 
            Indians conferences, including assisting with the passage 
            of 2016 NCAI Resolution, presentations during NCAI Violence 
            Against Women Task Force meetings and during annual VAW 
            government-to-government consultations,

    <bullet> participated in awareness activities/marches/California 
            Indian film festival/vigils,

    <bullet> created a toolkit, postcards, issued press releases, and 
            interviews with media worldwide,

    <bullet> conducted webinars and a social media campaign in support 
            of the National Day of Awareness for Missing and Murdered 
            Native Women and Girls, including Native Hawaiian women,

    <bullet> assisted with development of video PSAs and a documentary 
            about missing and murdered Alaska Native women, and

    <bullet> written Restoration Magazine articles since 2008, and I 
            submitted one such article along with NIWRC's written 
            testimony on March 14, 2019. The NIWRC's Restoration 
            Magazine is an incredible resource on many issues related 
            to ending domestic violence and sexual assault against 
            Native women, including MMIW. NIWRC has reported on the 
            crisis of MMIW since 2008.

    The CWTF concept was first developed in 2003 as a tool for 
organizing a national conversation of the grassroots movement, 
including building a national platform of current and emerging issues 
of concern and recommendations to increase the safety of Native women. 
The CWTF engagements involved meetings with grassroots advocates, 
community members, tribal leaders, tribal coalitions and allies. In 
2017, the NIWRC held a series of CWTF: Understanding the Issue of 
Missing & Murdered Native Women and Organizing a Response at NIWRC's 
Specialty Institute, the 2017 NCAI Mid-Year Convention, and at an 
Alaska Native Village Engagement in Kotzebue, AK. The CWTF discussions 
provided an overview about the issue of Missing and Murdered Native 
women, including ways to organize a response given that disappearances 
are often connected to not only domestic and sexual violence, but other 
forms of violence.
    Additionally, in 2017, in cooperation with Senator Murkowski, the 
NIWRC sponsored a MMIW hill briefing in partnership with the Indian Law 
Resource Center (ILRC) and the Alaska Native Women's Resource Center 
(AKNWRC), which focused on ``Moving Ahead to Increase the Safety of 
American Indian and Alaska Native Women, Efforts to Address Missing and 
Murdered Native Women and Girls.'' In addition to remarks offered by 
our panelists, Senators Murkowski, Tester and Daines, the NIWRC shared 
statistics from the NIJ report, Violence Against American Indian and 
Alaska Native Women and Men: 2010 Findings from the National Intimate 
Partner and Sexual Violence Survey and showed the NIJ video, Violence 
Against American Indian and Alaska Native Women and Men. The NIWRC 
provided an overview of missing and murdered Native women along with 
the Senate resolution, calling for May 5th as a National Day of 
Awareness for Missing and Murdered Native Women and Girls.
    In February 2018, in cooperation with Representative Torres, the 
NIWRC and several partners successfully hosted a reception and an 
event: ``Understanding the Crisis of Missing and Murdered Native 
Women'' at the Capitol Visitor Center in Washington, DC. The event 
coincided with NCAI's Executive Council Winter Session and was 
partnered with NCAI, the National Indian Gaming Association, the ILRC, 
the StrongHearts Native Helpline, the AKNWRC, the Tunica-Biloxi 
Economic Development Corporation, the Tunica-Biloxi Tribe, the Cheyenne 
River Sioux Tribe, and the Shakopee Mdewakanton Sioux Community. We 
also hosted a briefing to discuss MMIW issues and followed the event 
with a screening of Wind River. The event was well attended by Hill 
staffers, tribal leaders, and advocates from across the country who are 
actively engaged in addressing the issue of violence against Native 
women.
    The NIWRC organized additional screenings of Wind River with 
community discussions at the Haskel Indian University in Lawrence, KS 
in September 2017, University of South Dakota, Vermillion in February 
2018, Pala Band of Mission Indians (CA) in April 2018 during the Sexual 
Assault Awareness Walk for Honor Walk for Justice organized by the 
Avellaka Program La Jolla Band of Luiseno Indians, and NIWRC's Women 
Are Sacred 2018 Conference.
    The NIWRC provided statements with NCAI, ILRC and AKNWRC to the 
United Nations, including at the UNCSW March 2016 parallel event titled 
``Indigenous Women's Movements to End Violence Against American Indian, 
Alaska Native, and Aboriginal Women.''
    In August 2018, the NIWRC supported the Native Women's Society of 
the Great Plains that organized a candlelight vigil at the annual VAW 
government-to-government consultation in Sioux Falls, SD.
    In September 2018, the NIWRC hosted a candlelight vigil at the 
National Museum of the American Indian at which the following spoke: 
Representative Gwen Moore, myself, Caroline LaPorte (NIWRC Senior 
Native Affairs Advisor), Juana Majel Dixon (NCAI Task Force on Violence 
Against Native Women Co-Chair), Carmen O'Leary (NIWRC Board Vice-
Chairwoman and Executive Director of the Native Women's Society of the 
Great Plains) and Leanne Guy (NIWRC Board Secretary and Executive 
Director of the Southwest Indigenous Women's Coalition). Most impactful 
however, was when Florence Choyou shared the story of her daughter 
Monica who was murdered by her boyfriend in Keams Canyon on the Hopi 
Reservation.
    NIWRC has supported organizing efforts nationally and specifically 
the annual walks held in Lame Deer, Montana, during the National Day of 
Awareness. The NIWRC national office is located in Lame Deer, and it 
was also the home of Hanna Harris. NIWRC works closely with Malinda 
Harris, Hanna's mother, and staff have engaged at various levels of 
community support from making banners to the helping with the community 
meal following the walks.
    Based on the many difficult lessons from the disappearances and 
murders of women, the NIWRC developed a basic toolkit that summarizes 
key points for tribes and communities to consider. The toolkit 
encourages communities to prepare protocols based on an understanding 
that domestic and sexual violence occurs on a spectrum of abusive 
behavior and can include abduction and murder. We encourage tribes to 
take immediate action, noting the quicker the response, the faster the 
victim may be located and help may be provided.

    The Tribal Community Response Toolkit for Action includes a basic 
overview of lessons responding to cases of MMIW. It encourages 
communities to:

    <bullet> Develop a response before a disappearance occurs;

    <bullet> Contact law enforcement immediately as soon as a 
            disappearance occurs;

    <bullet> Document and track events--dates and times are essential;

    <bullet> Issue an alert immediately--a press release, radio 
            announcement, social media post;

    <bullet> Organize community actions--a vigil, search, justice walk, 
            or march to provide a positive anchor for family and 
            community to support the woman who is missing.

    In 2017 and 2018, the NIWRC collectively organized with the 
national grassroots movement for the safety of Native women to support 
the National Day of Awareness for Missing and Murdered Native Women and 
Girls, and the NIWRC is currently working on the effort for 2019. Past 
efforts included support from over 250 tribal, state, and national 
organizations. May 5, 2017, marked the first national day of awareness 
with tribal awareness and justice walks taking place across the United 
States. In 2018, the efforts of NIWRC included a social media campaign, 
which reached millions online globally.

    The NIWRC has presented four webinars:

    --Sept. 2014--``Missing and Murdered Native Women''

    --Nov. 2016--``Missing and Murdered Native Women--Public Awareness 
            Efforts''

    --May 2017--``Honoring Missing and Murdered Indigenous Women''

    --Dec. 2017--``Effective Use of the National Missing and 
            Unidentified Persons System (NamUs) for Case Resolution''

    Through our partnership with the Alaska Native Women's Resource 
Center and Healing Native Hearts Tribal Coalition, we have supported 
the development of public service announcements and a video documentary 
on Missing and Murdered Indian women, which have not yet been publicly 
distributed. During the March 14 hearing Tami Truett Jerue (Executive 
Director, AKNWRC) shared one of the PSAs with the Subcommittee.
    The NIWRC, with continued grassroots advocacy efforts and in close 
collaboration with our partners, will continue to raise awareness and 
advocate for social and systemic change to remove the barriers in laws 
and policies that prevent Tribal Nations from developing local, tribal 
responses to domestic and sexual violence, including MMIW. As in the 
past, since 2008, NIWRC will continue to document efforts in our 
Restoration Magazine.

    Question 2. Your testimony also refers to Alaska having ``unique'' 
jurisdictional challenges when compared to other tribes. Can you 
explain why Alaska has different jurisdictional issues and how the 
NIWRC is working with Alaska Native tribes to deal with this?

    2a. Please provide the historical context and different 
relationship Alaska Natives have with the Federal Government.

    Answer. In 2013, the NIWRC worked closely with Alaska Native 
village-based advocates to create the Alaska Native Women's Resource 
Center dedicated to working with Alaska Native tribes and allies to 
address domestic and gender-based violence. The AKNWRC formed as its 
own non-profit in 2015. NIWRC continues to work closely with the 
AKNWRC.
    Chapter 2 titled Reforming Justice for Alaska Native: The Time is 
Now of the Indian Law and Order Commission's (ILOC) report, A Roadmap 
for Making Native America Safer (November 2013) explains Alaska's 
jurisdictional issues, including some of the historical context, and 
provides recommendations for removing barriers in Federal laws and 
policies that NIWRC supports. Alaska Native tribes have the same 
government-to-government relationship with the Federal Government as 
tribes in the rest of the country.
    The extraordinarily high rates of murder, rape, sexual assault, and 
domestic violence committed against Alaska Native women have been 
recounted by Senators, documented by the United States Department of 
Justice, and Federal commissions, including the ILOC. As Senator Lisa 
Murkowski recently noted, ``violence against Native American and Alaska 
Native women is a dire issue, with murder being the third-leading cause 
of death of indigenous women.'' \6\
---------------------------------------------------------------------------
    \6\ Statement by Senator Lisa Murkowski (Nov. 14, 2018), https://
www.murkowski.senate.gov/press/release/murkowski-highlights-findings-
of-new-report-on-missing-and-murdered-indigenous-women-and-girls.
---------------------------------------------------------------------------
    A Roadmap for Making Native America Safer made the following 
recommendations:

        2.1: Congress should overturn the U.S. Supreme Court's decision 
        in Alaska v. Native Village of Venetie Tribal Government, by 
        amending ANCSA to provide that former reservation lands 
        acquired in fee by Alaska Native villages and other lands 
        transferred in fee to Native villages pursuant to ANCSA are 
        Indian country.

        2.2: Congress and the President should amend the definitions of 
        Indian country to clarify (or affirm) that Native allotments 
        and Native-owned town sites in Alaska are Indian country.

        2.3: Congress should amend the Alaska Native Claims Settlement 
        Act to allow a transfer of lands from Regional Corporations to 
        Tribal governments; to allow transferred lands to be put into 
        trust and included within the definition of Indian country in 
        the Federal criminal code; to allow Alaska Native Tribes to put 
        tribally owned fee simple land similarly into trust; and to 
        channel more resources directly to Alaska Native Tribal 
        governments for the provision of governmental services in those 
        communities.

        2.4: Congress should repeal Section 910 of Title IX of the 
        Violence Against Women Reauthorization Act of 2013 (VAWA 
        Amendments), and thereby permit Alaska Native communities and 
        their courts to address domestic violence and sexual assault, 
        committed by Tribal members and non-Natives, the same as now 
        will be done in the lower 48.

        2.5: Congress should affirm the inherent crirninal jurisdiction 
        of Alaska Native Tribal governments over their members within 
        the external boundaries of their villages.

    The current VAWA, however, does not ensure safety for Alaska Native 
women. As re-authorized in 2013, VAWA contained a specific provision 
(Section 910) exempting 228 federally recognized tribes in Alaska from 
Section 904's jurisdictional provision. In December 2014, Section 910's 
exemption for tribes in Alaska was repealed. This, however, has not 
ensured that Alaska tribes can protect their women from non-Indians who 
commit violent crimes and seek to harm them. The amendment repealing 
Section 910 did nothing to address the fact that Section 904 limits 
tribes' jurisdiction to crimes committed in ``Indian country,'' a legal 
term that the U.S. Supreme Court has interpreted to exclude the land 
bases of almost all of Alaska Native tribes (Alaska v. Village of 
Venetie Tribal Government, 522 U.S. 520 (1998)). As a result, Section 
904 continues to preclude 228 of the 229 federally recognized tribes in 
Alaska from exercising the jurisdiction that has now been restored to 
other Indian tribes. This jurisdictional loophole leaves Alaska Native 
women unprotected, and in many instances, makes calling the police a 
pointless--if not dangerous--exercise.
    The Tribal Law and Order Act Commission recommended a legislative 
fix for Venetie. The fix would amend the definitions of ``Indian 
country'' to include Alaska Native allotments and native-owned town 
sites; supporting land into trust applications by Alaska Native tribes; 
channeling more resources directly to Alaska Native tribal governments 
for governmental services; and supporting Alaska Native tribes and 
villages with the exercise of criminal jurisdiction within their 
communities. The reform needed also requires an amendment to the Alaska 
Native Claims Settlement Act's definition of ``Indian country'' to 
include Alaska Native allotments and Native-owned town sites. The 
Indian Law and Order Commission's Report stated that Congress should 
legislate a fix for Venetie by amending ANCSA to provide that former 
reservation lands acquired in fee by Alaska Native villages and other 
lands transferred in fee to Native villages pursuant to ANCSA are 
Indian Country.
    In partnership with the AKNWRC, the NIWRC recommends the adoption 
of a pilot project--similar to the one created in VAWA 2013--wherein 
three to five tribes in Alaska will be permitted to exercise SDVCJ (as 
well as any additional tribal criminal jurisdiction restored in the 
2019 reauthorization of VAWA). As this Committee moves forward with 
VAWA reauthorization, we encourage you to work closely with the Alaska 
delegation and the Alaska Native Women's Resource Center to include 
provisions that will address the needs of Alaska Native victims.

    Question 3. Ms. Nagle, NIWRC has done a lot of events both on the 
local and Federal level to educate the public on this issue, and I want 
to thank you and your organization for that.

    3a. With that in mind, why do you think it has been, and continues 
to be, so difficult in getting attention focused on the MMIW issue, 
especially in the law enforcement and justice arenas?

    3b. In your opinion, what is the greatest roadblock in this area?

    Answer. In addition to a lack of clear data from urban, state, and 
local law enforcement agencies across the United States, one of the 
largest barriers to addressing the crisis of murdered and missing 
indigenous women is that when a Native woman goes missing--on tribal 
lands--there is more often than not a jurisdictional barrier to 
launching the investigation and search and rescue effort that will 
ensure her safety.
    When a Native woman disappears and goes missing, so much of the 
``response'' is based on more questions--which law enforcement agency 
has jurisdiction to take an initial report, who can respond, who can 
search, who can investigate . . . and ultimately, who can/will 
prosecute? The first 24 hours of any missing person case is a crucial 
time for law enforcement to organize and conduct an immediate search, 
but too often, questions of jurisdiction impede a timely law 
enforcement response.
    Although the Supreme Court made in clear in Oliphant that Congress 
has the constitutional authority to restore the tribal criminal 
jurisdiction that the Supreme Court has removed,\7\ until tribal 
criminal jurisdiction over non-Indian perpetrated crimes of murder is 
restored, whether a Tribal Government has authority to investigate, 
arrest, and/or prosecute when a Native woman is missing on tribal lands 
depends upon the Indian/non-Indian status of the offender, the precise 
location of the crime (is it on land held in trust?), the nature of the 
crime, and within what state the tribe is located.\8\
---------------------------------------------------------------------------
    \7\ Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 (1978) at 206-
212 (``Congress has the constitutional authority to decide whether 
Indian tribes should be authorized to try and to punish non-
Indians.'').
    \8\ See The General Crimes Act, 18 U.S.C. Sec. 1152 (providing that 
Federal courts have jurisdiction over inter-racial crimes committed in 
Indian country); the Assimilative Crimes Act, 18 U.S.C. Sec. 1; the 
Major Crimes Act, 18 U.S.C. Sec. 1153 (providing Federal criminal 
jurisdiction over 10 enumerated major crimes committed in Indian 
country that is exclusive of the states); Public Law 83-280, 18 U.S.C. 
Sec. 1162 (delegating Federal jurisdiction to six states over most 
crimes throughout most of Indian country within their state borders); 
Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 (1978) (holding that 
tribes lack criminal jurisdiction over non-Indian defendants); Violence 
Against Women Reauthorization Act of 2013, S. 47, 113th Congress, Title 
IX (2013) (expanding tribal criminal jurisdiction to non-Indians for 
the crimes of domestic violence, dating violence and the violation of 
protection orders so long as the defendant has certain ties to the 
community and the tribe provides certain due process protections).
---------------------------------------------------------------------------
    The consequence of this current jurisdictional quagmire is that, 
most times, when a Native woman goes missing on tribal lands and the 
local Tribal Government cannot demonstrate that the perpetrator was 
Indian--or that the crime took place on lands that qualify as ``Indian 
country'' under 18 U.S.C. Sec. 1151(a)--then the Tribal Government is 
without jurisdiction, although the Federal Government could have 
jurisdiction, the Federal Government most often declines to intervene 
or take on the case.\9\
---------------------------------------------------------------------------
    \9\ From 2005-2009, the Government Accountability Office (GAO) 
found that U.S. Attorneys declined to prosecute nearly 52 percent of 
violent crimes in Indian country. U.S. GAO, U.S. Department of Justice 
Declinations of Indian Country Criminal Matters, Report No. GAO-11-
167R, 3 (2010).
---------------------------------------------------------------------------
    The non-existent response of law enforcement leaves the 
responsibility of a search effort to the family members or tribal 
community. There is no question that the pillars beneath the crisis of 
missing and murdered are the restrictions on tribal authority to 
prosecute non-Natives for crimes committed on tribal lands and the 
severe resource disparity in Indian Country at large. The current legal 
framework fails to respond to the disappearance and murder of Native 
women and girls because that same framework was born during an era of 
termination of Indian tribes and a prejudiced belief that Tribal 
Nations should be without jurisdiction to protect their citizens on 
tribal lands. We often speak of a ``broken system'' or of legal reform, 
but the truth is that the legal framework that applies in Indian 
Country was not designed to protect Native women and girls.
    We know that the restoration of tribal criminal jurisdiction over 
non-Indians works. Five years ago, when Congress passed the Violence 
Against Women in 2013, the re-authorization of VAWA included a 
provision, known as Special Domestic Violence Criminal Jurisdiction 
(``SDVCJ''), that reaffirmed the inherent sovereign authority of Tribal 
Governments to exercise criminal jurisdiction over certain non-Indians 
who criminally violate qualifying protection orders or commit domestic 
or dating violence crimes against Indian victims on tribal lands.\10\
---------------------------------------------------------------------------
    \10\ 25 U.S.C. Sec. 1304.
---------------------------------------------------------------------------
    In the 6 years since VAWA was reauthorized in 2013, over two dozen 
Tribal Governments have begun exercising criminal jurisdiction over 
non-Indians and several dozen more are in varying stages of planning to 
implement the law.
    From 2013 to 2018, the implementing tribes reported making 143 
arrests of 128 non-Indian abusers. These arrests ultimately led to 74 
convictions, 5 acquittals, and as of 2018, there were 24 cases then 
pending. There has not been a single petition for habeas corpus review 
brought in Federal court in an SDVCJ case. Although some argued, prior 
to VAWA 2013's passage, that Tribal Courts would be incapable of fairly 
implementing SDVCJ, the absence of even a single habeas petition in the 
first 5 years reveals that those arguments were unfounded and likely 
based on prejudice alone. Moreover, for the tribes that have 
implemented SDVCJ, their juries acquitted more often than they 
convicted non-Indian defendants. The bias that many previous asserted 
should prevent Tribal Nations from arresting and prosecuting non-
Indians simply does not exist.
    The National Congress of American Indians has issued a report 
summarizing their experiences that shows the true difference that the 
2013 Reauthorization has been making on the ground for Native victims. 
I encourage you to review this report in its entirety as the 
information, data, and analysis contained in the report demonstrates 
that the restored tribal criminal jurisdiction in VAWA 2013 (SDVCJ) 
increased public safety for all of those--both Indian and non-Indian--
--living on tribal lands and in tribal communities. By all accounts, it 
has been an incredible success.
    Until or unless the inherent authority of Tribal Nations of Tribal 
Nations to protect their citizens on tribal lands, our Native women and 
children will not be safe living in their own homes. The restoration of 
tribal criminal jurisdiction is a critical and requisite component to 
effectively addressing the murdered and missing indigenous women's 
crisis in the United States.

    Question 4. What avenues of funding are needed to address violence 
associated with the murder of Native women? What type of funding is 
needed for tribes and local governments to address problems that arise 
when a Native woman goes missing?

    Answer. It is necessary to state first that tribes need additional 
dedicated resources to support the development of local, tribal 
responses to MMIW cases. If tribes have the resources and authority to 
respond to these crimes before they escalate in seriousness and 
lethality, at least some, if not many, potential MMIW cases would have 
a meaningful intervention prior to fatal escalation.
    Specifically, the NIWRC recommends establishing permanent funding 
for victim services in tribal communities. Set aside resources for 
local, tribal responses to MMIW, such as a permanent tribal Victims of 
Crime Act (VOCA) set aside for tribal victim assistance and 
compensation programs.
    Funding of Indian tribes to address MMIW is generally zero to 
inadequate, and this lack of funding generally contributes to the 
vulnerability of Indian women to abusers and predators. Dedicated 
funding to Indian tribes under VAWA, FVPSA, and VOCA is based on the 
government-to-government political relationship of Indian tribes to the 
United States. These three dedicated funding streams each have specific 
purposes areas under the respective statute, and all currently include 
domestic violence; FVPSA is dedicated to shelter for victims of 
domestic and family violence; and, VOCA broader tribal victim services. 
All three of these statutes provide services to victims of crimes 
frequently co-occurring with the disappearance and/or murder of Native 
women--domestic violence, dating violence, sexual assault, sex 
trafficking, and stalking. Victim services are essential to prevent the 
future disappearance or murder of a Native woman. Where the response of 
the criminal justice system is critical to assist a woman who has 
disappeared and/or prosecuting the murderer. The following amendments 
are focused on increasing victim services and justice response, and a 
better understanding of the crisis of MMIW.

    The following recommendations require congressional action to 
enhance the response of Indian tribes to MMIW and crimes inter-
connected to the crisis of MMIW:

    <bullet> Increase funding to Indian tribes to provide necessary 
            services to victims regardless of where they live and work 
            to prevent disappearances and homicides;

    <bullet> Increase funding to Indian tribes to develop MMIW 
            protocols;

    <bullet> Authorize and appropriate under VOCA a pilot program for 
            Indian tribes to develop MMIW protocols and increased 
            response;

    <bullet> Amend VAWA, FVPSA, and VOCA tribal grant programs to 
            specifically support the development of MMIW protocols in 
            the context of the respective program;

    <bullet> Amend the VAWA 2013 National Institute of Justice national 
            program of tribal research to add the area of missing 
            Native women (VAWA 2013 included an amendment adding the 
            area of murder);

    <bullet> Amend the VAWA National Baseline Study to prepare a report 
            to Congress on the crisis of MMIW and appropriate $1 
            million per year for 5 years to conduct research and 
            prepare the report;

    <bullet> Inclusion under the Savanna's Act of a new pilot program 
            to support Indian tribes and tribal non-profits 
            organizations to develop and implement MMIW protocols (as 
            non-profit organizations urban tribal domestic violence or 
            sexual assault programs or urban Indian health centers 
            would be eligible).

                                 ______
                                 

    Mr. Gallego. Thank you, Ms. Nagle.
    Next, we have Ms. Tami Jerue. She is the Executive Director 
of the Alaska Native Women's Resource Center.

  STATEMENT OF TAMRA TRUETT JERUE, EXECUTIVE DIRECTOR, ALASKA 
   NATIVE WOMEN'S RESOURCE CENTER (ANWRC), FAIRBANKS, ALASKA

    Ms. Jerue. Thank you for inviting me to testify on this 
important issue today.
    I am an enrolled citizen of a small Deg it' tan Athabascan 
village in the interior or Alaska. I am a mother, a 
grandmother, an auntie, as well as the Executive Director of 
the Alaska Native Women's Resource Center.
    Missing and murdered indigenous women, or MMIW, is a far 
too common occurrence and recently has received much attention 
due to the many raised voices having put the issue in the 
public eye.
    Unfortunately, MMIW did not just start happening a few 
years ago, but has been happening since the first contact. 
There are many stories and experiences of Alaska Native women 
and girls that have faced victimization just because they are 
indigenous.
    Too many of our relatives have suffered abuse and death 
because of a government system that fails in their legal trust 
and moral responsibility to assist indigenous nations in 
safeguarding the lives of our women and children.
    There are many stories, such as the 20-year-old Sophie 
Sergie who traveled to Fairbanks from her small Yup'ik village 
in Western Alaska in 1993. She went to visit her friend at the 
University of Alaska. She left the room to go outside and never 
returned.
    She was eventually found, sexually assaulted, stabbed 
multiple times, shot in the back of the head in a dormitory 
bathroom.
    Unfortunately, for 25 years there had been no justice, and 
until recently a DNA was linked from a genetic genealogy site 
which uses family genetic history to find suspects. The DNA was 
linked to a student who attended the university in the 1990s 
and is now a nurse working in Maine. Finally, an arrest was 
made for this heinous crime 25 years ago.
    However, often we have no choice and no closure with many 
of our women who die unexpectedly and unnaturally. The manner 
of death, while it is far too often considered suspicious and 
often with visible injuries, is classified as accidental, 
suicidal, or undetermined.
    In the village of Klawock, police suspected foul play in 
the unnatural death of Francile Ella Turpin, 37, on January 14, 
2018. A year later, there is no resolution.
    Why is it that our women and families do not get the 
closure regarding cause of death that the general population 
takes for granted? Maybe because 40 percent of our communities 
have no law enforcement or even have 911 services to speak of.
    So, who do they call? The first responders are often 
volunteer medics who their first inclination is to address the 
injury. The possibility that there could be a crime committed 
is not even contemplated, and a scene can easily be 
contaminated before a semi-qualified individual can preserve 
the scene.
    Often first responders are the tribal chief or volunteer 
advocates who are tasked to preserve crime scene.
    Why do our women and girls go missing or are murdered at 
such high rates? I believe that is a simple but complicated 
question. The tragic truth is that the impact of colonization, 
past and current laws and policies, and natural resources 
development have endangered Alaska Native women and children.
    Oftentimes the attitude of people coming into our lands is 
that the lack of infrastructure, such as local police and 
services, normally in place that offer protection and justice 
systems to hold perpetrators of crimes accountable, do not 
exist in our tribal communities. A mixed message is sent that 
it is OK to commit crimes against Native people and there will 
be no consequences.
    Sadly, the long history and belief is that Native people 
are less valuable and a barrier to land and resource 
development, and American Indian and Alaska Native women are 
objectified and considered of little importance.
    As for the missing and murdered persons and homicides of 
Alaska Natives, Alaska has the highest number of any state, and 
these are not per capita numbers. Areas that would help 
decrease these statistics is to continue funding organizations 
such as ourselves, Alaska Native Women's Resource Center, which 
we are developing a community engagement toolkit to address 
when a person goes missing or dies by unnatural death.
    This plan will help tribal communities respond. We cannot 
wait for the State or Federal Government to act. We recommend 
we need a jurisdictional fix in Alaska's Indian Country issue 
in which 228 out of 229 tribes are without territorial 
jurisdiction and regular and consistent tribal justice and 
tribal law enforcement funding in Alaska through the Indian 
Tribal Support Act.
    A bipartisan group of co-sponsors in the Senate has 
introduced Savanna's Act, S. 227, which includes several 
provisions aimed at improving the response to the cases of 
missing and murdered women in tribal communities.
    However, how it is written now would exclude half of the 
tribes and needs to address Alaska tribes particularly.
    It provides sufficient Federal support for effective and 
culturally appropriate services to indigenous women, survivors 
of domestic violence and sexual violence, including to the 
provision of victim services, rape crisis, and transitional 
housing.
    When indigenous women do not have adequate services and 
safe housing, they are placed at risk.
    Provide permanent access to the Crime Victims Fund for 
victims' assistance and compensation. The House needs a bill 
similar to the Senate Survive Act.
    Fully implement VAWA 2005 program of research and 
specifically regarding the disappearance and murders of Native 
women. We need a baseline study for Alaska. As statistics 
prove, our situation is worse and may be different than the 
Lower 48.
    And finally, support tribal amendments to H.R. 1585, VAWA 
reauthorization, including a pilot project similar to the one 
created in VAWA 2013, wherein Alaska tribes can exercise 
special domestic violence criminal jurisdiction.
    There is a unique opportunity to recognize these issues and 
make corrections to the laws to support the Nation's first 
peoples.
    Dogidihn'.

    [The prepared statement of Ms. Jerue follows:]
 Prepared Statement of Tamra Truett Jerue, Executive Director, Alaska 
                     Native Women's Resource Center
    Thank you Chairman Grijalva (Natural Resources), Chairman Gallego 
(Subcommittee), Ranking Member Bishop, Vice-Chair Haaland, Good 
Morning, Adet'.
    My name is Tami Truett Jerue, Se'ezra I am an enrolled citizen of 
the Anvik Tribe, Deg it' tan Athabascan from interior Alaska. I am the 
Executive Director of the Alaska Native Women's Resource Center. I am 
the mother to four children, the grandmother of five grandchildren and 
the Auntie to many. Thank you for inviting me to speak today about our 
organization's work on this topic, our experience with Alaska Native 
women's rights, including on the ground efforts to address Missing and 
Murdered Indigenous Women (MMIW). I believe that it is critical that we 
work together to change laws, policies, and social norms and that the 
Federal Government create additional funding opportunities to address 
this issue, specifically to eradicate the disproportionate number of 
missing and murdered indigenous women and men.
    As you well know, Federal Indian law has created jurisdictional 
issues that leave Alaska Native villages and tribal nations across the 
country vulnerable to violent individuals who abduct and/or murder 
individuals. In Alaska in particular, the jurisdictional maze leaves us 
far too much without any protections in the way of law enforcement or 
properly trained police to address the most violent crimes. Alaska 
Native victims' access to justice and victim services requires many 
layers to get the help they need, often leaving crimes unsolved, which 
emboldens criminals, and abusers are left unaccountable. The Supreme 
Court case in the Native Village of Venetie, along with the Alaska 
Native Claims Settlement Act (ANCSA) have created a challenging 
situation for Alaska Native tribes to address village safety issues, 
especially as it relates to the accountability of abusers and criminal 
defendants and the ability to receive timely law enforcement response 
and related sorely needed victim services.
    We know of too many stories and experiences of Alaska Native women 
and girls that have faced victimization just because they are 
indigenous women. Too many of our relatives have suffered abuse and 
death because of a government system that fails in their legal trust 
and moral responsibility to assist Indigenous nations in safeguarding 
the lives of our women and children. We have few options when seeking 
help such as safe shelter, sexual assault services, law enforcement, 
medical and mental health services, or any type of help dealing with 
the aftermath of victimization. The following are some of the 
explanations of the challenges we face, and I offer some ideas for 
solutions.
    While violence against Native women occurs at higher rates than any 
other population in the United States, it is at its worst in Alaska. A 
full 50 percent of Alaska Native women will have experienced physical 
or sexual violence in their lifetime.\1\
---------------------------------------------------------------------------
    \1\ A Roadmap for Making Native America Safer: Report to the 
President and Congress of the United States (November 2013), available 
at http://www.aisc.ucla.edu/iloc/report/.
---------------------------------------------------------------------------
    We have no closure with many of our women who die unexpectedly and 
unnaturally. The manner of death, while it is too often considered 
``suspicious'' and often with visible injuries, the death is classified 
as accidental, suicidal, or undetermined. In the village of Klawock, 
police suspected ``foul play'' in the unnatural death of Francile Ella 
Turpin (37) on January 14, 2018, a year later, we have no 
resolution.\2\ Why is it that our women and families do not get the 
closure regarding cause of death that the general population take for 
granted? One reason could be that 40 percent of our communities have no 
law enforcement, or even any 911 services to speak of, so who do they 
call? The first responders are often volunteer medics whose first 
inclination is to address the injury. The possibility that there could 
be a crime committed is not even contemplated and the scene can easily 
be contaminated before a semi-qualified individual can preserve the 
scene. Other potential first responders are tribal leaders, and our 
volunteer women advocates go to attempt to preserve any potential 
crime. Joel Jackson, President of the Organized Village of Kake has had 
to respond to the crime scenes, including murders, because he is the 
closest that the village of 800+ has to a police officer--he was a 
former policeman as a young man.
---------------------------------------------------------------------------
    \2\ https://www.ktva.com/story/37289178/klawock-police-say-foul-
play-suspected-in-womans-death.
---------------------------------------------------------------------------
    Occasionally, our communities do see a resolution, but it could 
take years. The case of Sophie Sergie is an example of one such case 
that took 25 years to solve. Ms. Sergie traveled to Fairbanks from her 
Yup'ik village in Western Alaska, to visit a friend at the University 
of Alaska. She was found in the dormitory bathtub, dead, having been 
sexually assaulted, stabbed multiple times and shot in the back of her 
head. The cold case team used Genetic genealogy testing, which uses 
family genetic history to find suspects. The DNA was linked to a 
student who was attending the University at the time in the 1990s and 
is now a nurse working in Maine.\3\ Unfortunately, this case is an 
exception, and not the rule as we have too many unsolved cases. We are 
working on video PSAs and a short documentary specifically on the issue 
of missing and murdered Alaska Native women.
---------------------------------------------------------------------------
    \3\ https://www.adn.com/alaska-news/crime-courts/2019/02/16/25-
years-after-a-woman-was-found-dead-in-a-uaf-bathtub-alaska-state-
troopers-make-an-arrest/.
---------------------------------------------------------------------------
    As for the murder epidemic, the Violence Policy Center reports that 
Alaska is ranked first among states with the highest homicide rates of 
women by men and is the most violent state, with Anchorage as the most 
violent city within the Union. The Seattle-based Urban Indian Health 
Institute reports that Alaska is among the top 10 states with the 
highest number of missing and murdered Native Americans and Alaska 
Natives with 52 active cases.\4\
---------------------------------------------------------------------------
    \4\ Report available at http://www.uihi.org/wp-content/uploads/
2018/11/Missing-and-Murdered-Indigenous-Women-and-Girls-Report.pdf.
---------------------------------------------------------------------------
    Sadly, Alaska is a violent state. According to the Violent Death 
Reporting System between 2003 and 2008, Alaska Natives and American 
Indians make up 29.1 percent of the Homicide victims in Alaska, with 
the 20-29 age group seeing the largest number of murders--22.1 percent. 
In addition, during that time period Alaska Native and American Indian 
Women represented 38 percent of the overall deaths, with a firearm 
being the #1 cause killing our women--29 percent. In addition, the 
perpetrator in the murders of Alaska Natives and American Indian women, 
were generally not domestic violence or intimate partner related. The 
majority of the deaths were non-DV related, or 86.1 percent.\5\
---------------------------------------------------------------------------
    \5\ Alaska Violent Death Reporting System 2003-2008 (August 2011), 
State of Alaska, Department of Health and Social Services, available at 
http://dhss.alaska.gov/dph/Epi/injury/Documents/akvdrs/assets/
AKVDRS.pdf
---------------------------------------------------------------------------
    How do we track the missing and murdered? We don't. NamUs is about 
the only database that tracks MMIW and does contain valuable 
information, but it is a volunteer system and it does not currently 
talk to the FBI CJIS's Missing persons file, which is the system that 
law enforcement is most familiar with. Anyone can have access to 
NamUs--literally. All they have to do is set up an account and enter 
the information they want to enter about a missing person. The NamUs 
staff take that information and confirm with law enforcement before it 
can go out publicly. There are less missing Native persons in NamUs 
than there are in FBI CJIS's missing persons file, likely because law 
enforcement doesn't use it in the same way. NamUs is completely 
voluntary and was originally set up to try to match remains found with 
people who were missing. FBI CJIS's database is also voluntary except 
for entry of missing persons under age 18 which is mandatory, and then 
some states have mandatory missing person reports to CJIS by their 
state law, but it is way less than half. A tribe and everyone have 
access to initiate cases in NamUs, however, the net effect of going 
that route is unknown. In addition, there is a component in which 
genetic material is requested in NamUs. While this request is 
voluntary, it makes most Native Americans shy away from the process.
    As for the DNA collection, anyone can provide a family reference 
sample to NamUs, a law enforcement officer, or agent of a criminal 
justice agency for testing at the University of North Texas Health 
Science Center, Center for Human Identification, where NamUs is housed. 
Upon completion of the testing, the DNA profile is sent directly from 
the lab and uploaded to CODIS; no DNA samples are housed in the NamUs 
system. While NamUs says that the family reference sample can only be 
run against the unidentified decedent database and cannot ever be run 
against the convicted offenders or the forensic profiles. Apparently, 
at any time a family would like their DNA removed from CODIS they can 
send a written request to NamUs/UNT and the lab will request that the 
profile be removed from CODIS. Again, while this is the current policy, 
we do not have the assurances that our DNA won't be used in ways not 
approved.
    According to the National Institute of Justice, the NamUs team was 
in Alaska October 2018, to do outreach with several law enforcement 
agencies, the Alaska medical examiner, Department of Public Safety, and 
others. During those discussions it was raised that there is a backlog 
in digitizing 1,200 missing persons cases. Apparently, there is only 
one person currently working the backlog (Search and Rescue Program 
Coordinator, Missing Persons Clearinghouse Manager, Alaska State 
Troopers). That is not to say those cases are not being worked, just 
that they are not digitized thus unknown how many of those 1,200 cases 
are American Indian and Alaska Natives.
    As for missing persons, Alaska has the highest number of any state 
in the Union and these are not per capita numbers. As of January 2019, 
out of the 347 missing Alaska Native and American people's in the NamUs 
system 74 of those were from Alaska--the most of any state. Overall, 92 
percent have been missing for less than a year, and the majority of 
cases are male--about 1/3 to 2/3 respectfully. See attached. Why does 
it take so long to work our cases compared to other populations? That 
is a question that deserves an answer.
    The United States has made progress in addressing Violence Against 
Women. In 2013, during the congressional debates to reauthorize the 
Violence Against Women Act, United Nations human rights officials came 
together and released a public statement calling on the United States 
to act promptly to pass key reforms to the Violence Against Women Act 
that bolster indigenous tribes; that the continued jurisdictional gaps, 
especially those in Alaska, are an ongoing human rights crisis.\6\ 
Sadly, Alaska was mostly left out of these improvements because of its 
tribal land status that make tribal jurisdiction challenging. Unlike 
other areas of the United States that share jurisdiction between the 
U.S. Government and Indian tribes, in the state of Alaska, Indian 
tribes share jurisdiction with the state government. Because of Federal 
and state laws, policies and allocation of resources, including the 
Department of the Interior's prior policy not to fund tribes in Public 
Law 280 states, tribal responses have been throttled leaving the 
investigation and prosecution of crimes, including violence against 
women and children to the state. Alaska, like the Federal Government, 
has failed in providing for public safety in Alaska Native villages as 
according the Tribal Law and Order Commission Report, about 40 percent 
of our communities lack law enforcement.\7\
---------------------------------------------------------------------------
    \6\ http://www.unwomen.org/en/news/stories/2013/6/it-is-time-for-
action-to-end-violence-against-women-a-speech-by-lakshmi-puri.
    \7\ Supra fn 1.
---------------------------------------------------------------------------
    The United States has a Federal trust responsibility to the first 
people of the United States. In several cases discussing the trust 
responsibility, the Supreme Court has used language suggesting that it 
entails legal duties, moral obligations, and the fulfillment of 
understandings and expectations that have arisen over the entire course 
of the relationship between the United States and the federally 
recognized tribes. However, since Alaska entered the Union, the state 
has been ceded the Federal jurisdiction among tribes and as a result 
left us without access to resources. The United States has failed this 
responsibility in their protection of American Indian and Alaska Native 
communities. Many of our communities are lawless as a result of the 
Federal and state governments not living up to their responsibilities.
    While there is tremendous diversity among all tribes, it is worth 
noting that many of the 229 tribes in Alaska experience extreme 
conditions that differ significantly from tribes outside Alaska. Most 
of the Alaska Native villages are located in remote areas that are 
often inaccessible by road and have no local law enforcement presence. 
The Tribal Law and Order Commission found that ``Alaska Department of 
Public Safety (ADPS) officers have primary responsibility for law 
enforcement in rural Alaska, but ADPS provides for only 1.0-1.4 field 
officers per million acres.'' \8\ Without a strong law enforcement 
presence, crime regularly occurs with impunity. Victims live in small, 
close-knit communities where access to basic criminal and civil justice 
services is non-existent and health care is often provided remotely 
through telemedicine technology. Providing comprehensive services and 
justice to victims in these circumstances presents unique challenges. 
In many of these communities, tribal members receive services in 
informal ways, if at all. Domestic violence victims, for example, may 
be offered shelter in a home that is a known ``safe house'' in the 
village. Many victims of sexual assault never receive forensic medical 
services. Furthermore, Alaska tribal governments are unique among 
indigenous American tribes in their lack of access to the same type of 
government revenues available to nearly every other sovereign entity in 
the country.
---------------------------------------------------------------------------
    \8\ A Roadmap for Making Native America Safer: Report to the 
President and Congress of the United States (November 2013), available 
at http://www.aisc.ucla.edu/iloc/report/.
---------------------------------------------------------------------------
    As previously mentioned, Alaska's track record demonstrates a lack 
of engagement and follow through with tribal governments that creates 
one of the most dangerous situations for Native women in the Nation. 
Local control to local solutions with resources is critical to 
improving the situation for our Alaska Native brothers and sisters.
    According to the 2013 Tribal Law and Order Act Commission Report, 
Alaska Native women are over-represented in the domestic violence 
victim population by 250 percent; they comprise 19 percent of the state 
population but are 47 percent of reported rape victims. And among other 
Indian tribes, Alaska Native women suffer the highest rates of domestic 
and sexual violence in the country. Tribal governments are also unable 
to prosecute crimes of sexual assault, trafficking, and stalking. A 
2016 study from the National Institute for Justice (NIJ), found that 
approximately 56 percent of Native women experience sexual violence 
within their lifetime, with one in seven experiencing it in the past 
year.\9\ Nearly one in two report being stalked.\10\ Contrary to the 
general population where rape, sexual assault, and intimate partner 
violence are usually intra-racial, Native women are more likely to be 
raped or assaulted by someone of a different race. Ninety-six percent 
of Native women and 89 percent of male victims in the NIJ study 
reported being victimized by a non-Indian.\11\ Native victims of sexual 
violence are three times as likely to have experienced sexual violence 
by an inter-racial perpetrator as non-Hispanic White victims.\12\ 
Similarly, Native stalking victims are nearly four times as likely to 
be stalked by someone of a different race, with 89 percent of female 
stalking victims and 90 percent of male stalking victims reporting 
inter-racial victimization.\13\ The higher rate of inter-racial 
violence would not necessarily be significant if it were not for the 
jurisdictional complexities unique to Indian Country and the 
limitations imposed by Federal law on tribal authority to hold non-
Indians accountable for crimes they commit on tribal lands.
---------------------------------------------------------------------------
    \9\ Andre B. Rosay, Nat'l. Inst. of Justice, Violence Against 
American Indian and Alaska Native Women and Men: 2010 Findings from the 
National Intimate Partner and Sexual Violence Survey, U.S. Dep't. of 
Justice 11 (2016), available at https://www.ncjrs.gov/pdffiles1/nij/
249736.pdf.
    \10\ Id., at
    \11\ Id., at 18.
    \12\ Id., at 29.
    \13\ Id., at 32.
---------------------------------------------------------------------------
    Historically, Alaska tribes have been treated differently than 
Lower 48 tribes, often making fundamentals of tribal court jurisdiction 
challenging to understand or ascertain resulting in recognized 
disparities which resulted in the FY 17 appropriations for an Alaska 
Native Tribal Resource Center on Domestic Violence (see attached 
article, ``A Tribal Perspective on VAWA 2018'' from Restoration 
Magazine, V15.3-October 2018 NIWRC). With the passage of the Alaska 
Native Claims Settlement Act (ANCSA) in 1971, the only remaining 
reservation in the state is the Annette Island Reserve in Southeast 
Alaska.\14\ Rather than recognize sovereign tribal lands, ANCSA tasked 
the for-profit corporations to manage more than 40 million acres of fee 
land. ANCSA divided the state into 12 regional corporations and over 
200 village corporations that would identify with their regional 
corporation. Many of these villages had corresponding tribal village 
governments, but with the passage of ANCSA, no meaningful land base. As 
a result, unlike most court systems that have defined territorial 
jurisdiction and personal jurisdiction, Alaska tribal courts generally 
exercise jurisdiction through tribal citizenship, and not through a 
geographic space defined as ``Indian Country'' because of ANCSA and in 
part due to a U.S. Supreme Court case.
---------------------------------------------------------------------------
    \14\ 25 U.S.C. 495 (1891).
---------------------------------------------------------------------------
    As a result of the U.S. Supreme Court's unfavorable decision in 
Alaska v. Native Village of Venetie Tribal Government, 522 U.S. 520 
(1998), most of the tribes' traditional territory is not considered 
``Indian Country.'' Without the ability to tax, without Indian gaming, 
and without consistent and predictable tribal court and law enforcement 
appropriations, Alaska tribes lack the revenue typically available to 
other tribal governments to fund and sustain essential governmental 
programs. All Alaska tribes are in a similar position and must find 
innovative ways to raise government revenue and to leverage other 
resources to sustain their tribal courts and public safety programs. As 
a result of this resource dilemma, available grants for developing and 
maintaining programs are incredibly important for Alaska tribes.
    Making matters worse, in 2003, Alaska's own Senator Ted Stevens 
singled out Alaska tribes for exceptionally harsh financial 
restrictions through legislative riders. The riders eliminated funds to 
tribal courts and tribal law enforcement programs in Alaska Native 
villages and specifically excluded certain Southeast Alaska communities 
from receiving any Department of Justice funding. Although Congress 
recently eliminated these restrictions, the limitations set back Alaska 
tribes even further while they were in place. Without adequate 
resources, tribal court and law enforcement services have been 
difficult to maintain.
    As required by a provision included in VAWA 2005, DOJ holds an 
annual consultation with tribal governments on violence against women. 
For several years tribal leaders have raised concerns at the annual 
consultation about the inadequate response to cases of missing or 
murdered Native women. DOJ summarized tribal leader testimony on this 
issue in 2016: ``At the 2016 consultation, many tribal leaders 
testified that the disappearance and deaths of American Indian and 
Alaska Native (AI/AN) women are not taken seriously enough, and that 
increased awareness and a stronger law enforcement response are 
critical to saving Native women's lives. They noted that missing AI/AN 
women may have been trafficked, and they also provided examples of 
abusers who murdered their partners after engaging in a pattern of 
escalating violence for which they were not held accountable. Tribal 
leaders also raised concerns that cases involving Native victims are 
often mislabeled as runaways or suicides, and that cold cases are not 
given sufficient priority. Recommendations included the creation of a 
national working group to address these issues and an alert system to 
help locate victims soon after they disappear, as well as the 
development of an Indian Country-wide protocol for missing Native 
women, children, and men.'' \15\
---------------------------------------------------------------------------
    \15\ U.S. Department of Justice, Office on Violence Against Women, 
``2017 Update on the Status of Tribal Consultation Recommendations,'' 
(2017).
---------------------------------------------------------------------------
Policy or funding recommendations for the Federal Government to address 
        this issue:
    Continue to fund organizations like the Alaska Native Women's 
Resource Center. We are putting together a Community Engagement plan to 
address when a person goes missing or dies by an unnatural death. This 
plan will address the services, public statements, legal issues and 
resources, the governmental role, and other resources. We will have 
grass roots monthly public calls to ensure that we are understanding 
the issues and how the plans will work within various community models. 
We cannot wait for the state or Federal Governments to act.

    We recommend the following:

 1.   We call on the United States for a jurisdictional fix to the 
            Alaska Native Indian Country issue, and regular and 
            consistent tribal justice funding.

 2.   A bi-partisan group of co-sponsors in the Senate, has introduced 
            ``Savanna's Act,'' S. 227, which includes several 
            provisions aimed at improving the response to cases of 
            missing and murdered women in tribal communities. While 
            this bill is encouraging in that it has several provisions 
            that will improve the tracking and recognition of the 
            problem, the current version may potentially leave out more 
            than \1/2\ of the tribes sharing concurrent state 
            jurisdiction in P.L. 280 states who have no involvement 
            with the U.S. Attorney Office. We need the House to have a 
            similar bill introduced.

 3.   However, Savannah's Act places the responsibility for collecting 
            data on law enforcement. As previously mentioned nearly 40 
            percent of our communities lack any law enforcement, thus 
            we would be left out. We need to make sure that there is 
            more inclusion for all American Indians and Alaska Native 
            communities to be included and considered. A plan needs to 
            include all 573 tribes in the Nation.

 4.   Providing sufficient Federal support to non-profit, non-
            governmental indigenous women's organizations to provide 
            effective and culturally appropriate services to indigenous 
            women survivors of domestic and sexual violence, including 
            but not limited to the provision of shelter, rape crisis 
            and transitional housing. When Indigenous women do not have 
            adequate and safe housing they are placed at risk.

 5.   Provide dramatically increased funding resources for broader 
            community training on domestic/dating violence, sexual 
            assault, stalking, sex trafficking, and trauma and best 
            practices for prevention.

 6.   Provide increased support for dramatically increased funding 
            resources for tribal courts and tribal law enforcement in 
            Alaska.

 7.   Provide increased victim services to the families and community 
            members of the disappeared or murdered Native women, such 
            as counseling for the children of the disappeared, burial 
            assistance, and community walks, healing and other tribal-
            specific ceremonies. The House needs a bill similar to the 
            SURVIVE Act as that would address this issue.

 8.   Fully implement the VAWA 2005 program of research and 
            specifically provide Indian tribes information regarding 
            the disappearance and murder of Native women. We need a 
            baseline study for Alaska as our situation may be different 
            than what the National Institute of Justice reported in 
            their Violence Against American Indians and Alaska Native 
            Women and Men.

 9.   Upon enactment of Savanna's Act, provide targeted funding for 
            tribal governments like Tlingit & Haida, perhaps on a pilot 
            program basis, to ensure full participation in and 
            coordination of efforts across Federal departments to 
            conduct research and collect data to better improve tribal 
            government responses to the disappearance or murder of 
            Native women and girls.

10.   Support tribal amendments in H.R. 1585, VAWA Reauthorization 
            including a pilot project in section 903--similar to the 
            one created in VAWA 2013--wherein Alaska Tribes can work 
            with each other and with the Department of Justice through 
            an Inter-Tribal Working Group for Alaska Tribes to develop 
            their responses and exercise SDVCJ (as well as any 
            additional tribal criminal jurisdiction provisions proposed 
            in the VAWA 2019 reauthorization). As VAWA reauthorization 
            moves forward, we encourage you to work closely with the 
            Alaska delegation and the Alaska Native Women's Resource 
            Center to address the needs of Alaska Native victims.

    There is a unique opportunity to recognize these issues and make 
corrections to the laws.

    In Deg it' tan Athabascan, as with other language groups in Alaska, 
we had no words or description for violence within a family home. We 
had traditional forms of justice that kept our community in check and 
women valued as the life giver of the family. We had community justice, 
which we are now returning to.
    The Alaska Native Women's Resource Center receives Federal funds 
through the Office on Violence Against Women, U.S. Department of 
Justice and the Family Violence Prevention and Services Office, U.S. 
Department of Health and Human Services. With such funding, we are 
providing meaningful village engagement sessions with Alaska Native 
tribes, to help with identifying the resources within each tribe to 
address violence against women in their own voices, language and 
teachings. We have seven distinct language groups in Alaska. We create 
a unique theme to each engagement session and work with the tribe 
toward restoring balance in their community.
    Restoring and enhancing local, tribal governmental capacity to 
respond to violence against women provides for greater local control, 
safety, accountability, and transparency. We will have safer 
communities and a pathway for long lasting justice.

    Dogidihn'.

                                 *****

The following documents were submitted as supplements to Ms. Jerue's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --Indian Law & Order Commission: Report to the President and 
            Congress of the United States, ``A Roadmap for Making 
            Native America Safer,'' November 2013. Chapter Two--
            Reforming Justice for Alaska Natives: The Time is Now.

    --National Missing and Unidentified Persons System, NamUs Tribal 
            Update, as of January 30, 2019.

    --Restoration Magazine, Volume 15, Issue 3, October 2018, National 
            Indigenous Women's Resource Center, ``A Tribal Perspective 
            on VAWA 2018, Extending the Same Protections for Alaska 
            Native Women, by Michelle Demmert, Chief Justice of the 
            Central Council of Tlingit and Haida Indian Tribes of 
            Alaska Supreme Court.

                                 ______
                                 

  Questions Submitted for the Record to Tamra Truett Jerue, Executive 
            Director, Alaska Native Women's Resource Center
                  Questions Submitted by Rep. Haaland
    Question 1. In your ``Recommendations'' in your written testimony, 
you suggested that victim services are needed for family and community 
members of MMIW. How do you see the after effects of these crimes 
impacting the community and especially children? What could we do to 
help the community heal?

    Answer. We need resources and a jurisdictional fix to the Indian 
Country issue in Alaska. We need sustainable, predictable funding to 
create and maintain the necessary programs within our communities. As 
mentioned, we need a jurisdictional fix in Alaska, so once and for all, 
we aren't fighting to be included in programs and policies with our 
limited resources. The Tribal Law and Order Commission identified in 
Chapter 2 of their report, that our communities continue to be 
vulnerable to heightened levels of violence, including disturbed 
individuals who prey on Native women, unless more resources and 
jurisdictional issues are addressed.
    Many of our tribal communities are small and many of our relations, 
both within the community and those that live outside of the community, 
are impacted by the trauma of not knowing what may have happened to a 
love one when they go missing, as well as if a person is taken suddenly 
and violently through murder or an unexplained death. At this point in 
Alaska, trauma-informed care is difficult to access particularly in 
small isolated tribal communities. Lack of access to adequate resources 
impacts the families directly in their ability to heal particularly 
from a person who has been taken suddenly through murder. Sadly, law 
enforcement frequently do not help the situation, as they don't 
maintain contact with the family to keep them informed of the 
investigation and as a result, our families suffer. The questions, 
feelings and lack of justice for that person and family have a negative 
lingering effect with the family and directly impacts the surviving 
children. The fear and trauma experienced will continue to have long-
term impacts as verified in many studies such as the Adverse Childhood 
Effects as well as the fear of it happening to them; especially if no 
one has been held accountable for the murder or the death is 
unexplained.
    When a family member goes missing, many issues come up--blame, 
guilt, confusion, sadness along with the inability and unwillingness to 
give up the search. All of these factors can lead to many health, 
mental health and addictive types of concerns that need attention and 
culturally based resources. We all process trauma differently. 
Unfortunately, many of the services that are possibly available are in 
larger cities and are difficult to access for rural Alaskans.
    The resources to our rural areas are often scarce but needed. The 
services mentioned above, law enforcement, justice systems, victim 
services, all require resources, money, services and training to 
provide the necessary support. The state of Alaska, as a P.L. 280 
state, has been tasked with providing these services but over the years 
these services have not been forthcoming. The state's actions 
demonstrate it does not understand the needs of rural communities, or 
worse yet, that these communities and citizens are not a priority. The 
current budget crisis in Alaska continues to decrease the resources 
allocated to our villages. One example is that if a village judicial 
officer retires, the state may not fill that position to save costs. 
When the magistrate retired in Kake, the state closed the court there. 
This story is not unique. The state also withdrew funding for law 
enforcement there. Right now, in Kake, while Village Public Safety 
officers (VPSOs) can respond to some emergencies, 911 services are off 
site, and sometimes citizens are only able to leave a message. Law 
enforcement, except for the limited services a VPSO can provide, is 
also off site, and as a result, their response is often delayed, 
jeopardizing even the possibility of access to justice because a crime 
scene goes stale or the chain of custody is lost. Many other villages 
lack even a VPSO. Our villages need resources to address the same 
criminal justice needs that urban citizens face. Fortunately, the 
tribes stand by, ready to partner with the state and fill the need, not 
only for its tribal citizens, but all rural citizens. However, without 
adequate resources this solution is not viable at the present time.
    Our urban populations, meanwhile, have access to other resources, 
as individuals who reside where the Federal Government and states 
provides services, but their access to justice can be similarly 
impaired. At a recent meeting in Washington State, Central Council of 
Tlingit and Haida Indian Tribes of Alaska held a joint meeting with the 
Washington State Patrol to help with identifying resources for MMIW 
cases. Tlingit & Haida has more than 6,000 tribal citizens in the 
Seattle area. They heard story after story from Alaska Native 
indigenous women and their families who have been mistreated by law 
enforcement in urban areas and how this mistreatment is its own trauma 
that imprints within them. In some places, law enforcement asked 
victims if the abuse they suffered was not typical ``for their 
people.'' In other places, the families of missing women have been told 
the women have a right to disappear, even when there is evidence of a 
crime or violence thus evidencing a lack of understanding of what our 
people face and very little sympathy and compassion to finding a 
solution. What?! That view is shocking and lacks any understanding of 
the epidemic that we are facing. The families are brushed aside, with 
the same sentiment, `this reality is typical for your people.' The 
unspoken message sent when time and energy are not allocated to these 
incidents is that the treatment is typical, and acceptable. Our 
communities thus shun the law enforcement as meaningless and possibly 
causing more damage and pain than helping with any situation.

                  Questions Submitted by Rep. Grijalva
    Question 1. Ms. Jerue, we've heard mention of the NamUs database, 
which is an entirely volunteer system for tracking missing people and 
the fact that it doesn't even coordinate with the FBI Criminal Justice 
Information Service's missing person file.

    1a. What are the other shortcomings of this current tracking 
system, and how do those effect getting accurate data on MMIW?

    Answer. NamUs has been very helpful in getting information to a 
broader amount of people when searching for information on a loved one 
who has gone missing as well as identifying whether that person may be 
an indigenous person. That being said because of its volunteer status, 
it may not, and probably is not, accessed regularly by law enforcement 
over many jurisdictions. However, in Alaska, where there is law 
enforcement, there may be limited access to FBI Criminal Databases due 
to remote locations and lack of consistent access to quality internet 
or cellular service, which creates another layer of information not 
readily available to help in searching for MMIW issues.
    As you may know, NamUs was originally set up to try to match 
remains found with people who were missing. It is voluntary, and 
literally, anyone can access it. All they have to do is set up an 
account and enter the information they want to enter about a missing 
person. The NamUs staff then take that information and confirm with law 
enforcement before the information can go out publicly. There are fewer 
missing Native persons in NamUs than there are in FBI Criminal Justice 
Information Services (CJIS) missing persons file. The FBI CJIS database 
is also voluntary, except for entry of missing persons under age 18 
which is mandatory, though a few states have mandatory missing person 
reports to CJIS by their law enforcement. NamUs and CJIS are separate 
systems, which cannot currently talk to each other. When this point is 
raised with Federal officials, they look at us like we have a third 
eye--they don't acknowledge the value of having one streamlined 
database and process.
    Tribes and the general public could have access to NamUs, the 
challenge, however, is that the most tribes lack the resources and 
infrastructure to track the type of information that needs be entered 
and assign someone to enter such information.

    1b. How does this greatly affect on the ground issues you see in 
Alaska?

    Answer. One main issue is that 40 percent of our tribal communities 
have no law enforcement and have to depend on off-site law enforcement 
such as the Alaska State Troopers based in other areas, so often a 
search will be started by a local people. The other impact is that 
there are circumstances that missing indigenous women living out of 
their communities in Alaska cities may not be as high a priority as 
other situations because of how they may be living. Our victims are not 
perfect, and their lifestyle may be a barrier to getting help. The 
databases, beside NamUs, require law enforcement to access them to even 
enter the information if a missing person designation has even been 
given. The Tribal Access Program, as it currently exists will not be 
available to the 228 out of the 229 tribes of Alaska because the 
criteria for involvement requires a tribal law enforcement agency. Very 
few of our communities have this, and none probably have the 24-hour 
law enforcement that can be required for participation.

    Question 2. How can agencies like the FBI and BIA shift their 
protocols to better work with tribes to protect Native women and girls, 
and solve MMIW cases?

    Answer. Resources need to be available for all tribes regardless of 
where they are located, whether a P.L. 280 state, non-P.L. 280 state, 
checkerboard jurisdiction, etc. The FBI-CJIS has policies and 
procedures that are not tribal friendly and they, the FBI and CJIS in 
particular, need to be challenged to add users to their systems who may 
not have the necessary infrastructure to work with their existing 
models. CJIS should be further challenged to develop programs that 
address the needs of tribal communities in this area. There is a trust 
responsibility that they are not being reminded of and how their role 
could help track the real numbers of MMIW, the circumstances, the 
success and failure rate of solving these cases and the number of 
unsolved cases and what if any, common factors exist that inhibit 
solving the case.
    The BIA is better about working with tribes and understanding 
tribal needs, but unless you are within their limited service 
definition for direct services, you will not have access to a BIA 
Victim Service specialist. I believe there may be only 10 or so in the 
country. How can that be possible with over 560 tribes nationwide? The 
Tribal Justice Support, Office of Justice Services has made a big 
impact in helping with funding for victim services, however, the 
funding is year to year based on appropriations and cannot be rolled 
into our compacts or self-governance agreements. In Alaska, we need to 
open up compact negotiations to include court and law enforcement as 
those were previously unavailable to us.

    Question 3. Where should the priorities be in providing funding to 
address this violence?

    3a. Which Federal agency should be tasked with leading MMIW cases?

    Answer. This is a very difficult question to answer because 
currently many agencies--DOI, HHS, DOJ-OVW, OVC, OJJP, etc.--have 
programs that relate to many of these issues, but do not collaborate 
with each other to provide comprehensive services, thus tribes have to 
pick and choose who they have the capacity to work with because of 
their limited resources. DOI has the ability to work with tribes 
directly, but most of the other agencies fund programs through 
competitive grants. We need consistent funding that provides the 
resources to all tribes that want to collaborate and coordinate. The 
competitive grant program should not be considered for funding these 
important issues. NIJ should be tasked with establishing a protocol for 
researching the cost of crimes and law enforcement to address these 
issues, and formulas should be created to determine how best to fund 
programs to combat these very serious issues. We need funding programs 
for fatality review commissions to study the issues, and fully 
understand what lead to these fatalities, and develop solutions to 
address the cultural needs to stop these issues and provide culturally 
relevant healing and resources for services.
    Alaska tribal governments are unique among indigenous American 
tribes in their lack of access to the same type of government revenues 
available to nearly every other sovereign entity in the country, thus 
their resources are highly dependent on the Federal Government. If you 
would like further information, feel free to contact me.

                                 ______
                                 

    Mr. Gallego. Thank you so much to all of our witnesses.
    Again, I want to thank the expert witnesses for their 
powerful testimony.
    Reminding members that Committee Rule 3(d) imposes a 5-
minute limit on questions, the Chairman will now recognize 
Members for any questions they may wish to ask of the 
witnesses.
    I will start by recognizing myself for the first 5 minutes, 
and we will alternate to our Ranking Member and go on from 
there.
    Thank you again for the witnesses. This has been, I think, 
very difficult for many of us to listen to, but very much 
necessary.
    Professor Deer, in your testimony you mentioned the 
Sovereign Bodies Institute, a non-profit Native-owned and 
operated organization. What is the importance of having 
organizations such as SBI work on data gathering projects 
related to MMIW?
    And, how accessible is this information to Federal 
agencies?
    Ms. Deer. Thank you for that question.
    I believe that it is critical that Native people are at the 
forefront of this effort. Even if we were to receive Federal 
funding, it still should be that tribal members and families 
and survivors should drive the data collection, and one of the 
reasons is for cultural reasons.
    If someone is going to add a name of a missing loved one to 
a data set, there is sometimes the need for ceremony. Feasts 
are associated with that. So, if it is the Federal Government 
collecting the data, they are not necessarily in the position 
of providing that.
    And while Federal data would be helpful, I really do 
believe that the forefront should be led by indigenous women 
survivors and their families.
    I think that non-profits can partner with Federal agencies, 
but it needs to be on the terms of the indigenous people at the 
forefront, and that will help our families feel comfortable in 
coming forward and sharing their story, and sometimes it has 
been decades, and they do not believe anyone cares anymore.
    So, we need to do that outreach. That requires grassroots 
efforts.
    Mr. Gallego. Thank you, Professor.
    Representative Buffalo, you spoke about the progress of 
your bills on the issue in the North Dakota legislature. In my 
home state of Arizona, a bill to improve data on missing and 
murdered indigenous women just unanimously passed the House 
this week and is headed to the State Senate.
    Can you speak to why it is important to address this crisis 
at a Federal level, as well as the local like you are trying 
right now?
    Ms. Buffalo. Mr. Chairman and members of the Committee, it 
is very important that all levels of government pay attention 
to this issue because we have a larger population that also 
lives off of the reservation or outside of the exterior 
boundaries of an Indian reservation.
    That is why we are focusing on a state level, to make sure 
that we implement mechanisms that will tell a story and will 
show evidence that there is an issue here and that we need to 
pay special attention to this epidemic.
    Thank you.
    Mr. Gallego. Thank you, Representative.
    Ms. Jerue, how does the MMIW issue differ for Alaska tribes 
versus tribes in the Lower 48?
    And how do these differences impact your attempts to 
address the issue?
    Ms. Jerue. There are many jurisdictional differences in 
Alaska compared to the Lower 48 tribal communities, and those 
jurisdictional issues have impact in a couple of different 
ways.
    A lot of our tribes are very isolated. We have 229 tribes. 
Only one is federally recognized as a reservation, and that is 
Metlakatla. And because of that, the 228 tribes are under the 
jurisdiction under Public Law 280 with concurrent jurisdiction 
with the state of Alaska.
    So, they are tasked for their law enforcement and 
jurisdictional and justice systems through the state of Alaska. 
At this point because of the isolation of the tribes and the 
differences in terms of distances, the cost of those distances, 
it has created a mess in terms of the fact that there are very 
difficult times.
    I know that Joel Jackson, whom you referred to from the 
Native village of Kake, often tells the story that they will 
get faster response for a killing of a moose out of season than 
they will of a Native woman. And, unfortunately, that is not 
just a story.
    The problem is that law enforcement, the lack of law 
enforcement and justice systems in our communities, really does 
create a crisis in terms of living in our isolated communities.
    Unfortunately, we also have a large number of Native people 
that live in the cities of Anchorage, Fairbanks, and Juneau, 
and other what they call hub communities. And, oftentimes, the 
response there tends to be Native women, if they have other 
issues, are often not take seriously, especially if there has 
been some kind of crime against them, and there are often many 
crimes against them. I think we have a very vulnerable 
population in the cities.
    Unfortunately, then law enforcement's response also lacks 
any real care.
    Mr. Gallego. Thank you, Ms. Jerue.
    Now I would like to recognize my Ranking Member, Mr. Cook, 
for his first question.
    Mr. Cook. Thank you very much.
    Once again, I want to thank the witnesses.
    I notice I see Wilson Pipestone in the audience. A number 
of years ago, I went down to Cherokee, North Carolina, where 
there was a Native American play, that I think he was the star 
of. I don't know, but it was a great, great play to emphasize 
VAWA, Violence Against Women.
    And some of these things to outsiders, they don't see that. 
Some of the things that you underscored we are all concerned 
about.
    In the back of my pea brain, I am trying to figure out, 
boy, this is horrible, this is terrible. Now, how are we going 
to correct this, how do we do this?
    And we talked about the differences, and people are 
concerned about confidentiality and everything else, I think, 
identifying the problem, getting law enforcement, all of those 
things, a database.
    There was a woman. I cannot remember her name. I think her 
last name was McNamara. She was not a police officer, but she 
wrote a book about what she did in these killings in California 
all over the place, and this one person, when you look at this, 
she just passed away, unfortunately, and then her book became a 
best seller.
    And I am trying to think what I want from you. I understand 
the anecdotes and the emotion and everything else. What I am 
hoping is that the collective wisdom here, that you give us a 
battle plan, a battle plan where we can turn it into action in 
terms of constructive laws and policies that unite everybody.
    Oh, I just found out you wrote the play.
    [Laughter.]
    Mr. Cook. Hey, I am just a dumb Marine up here.
    Wilson, you were not that good. You never liked the bear 
meat that they served that night.
    It is not fair being in the Minority right-of-way.
    But I think you have a lot of supporters. As I said, I 
voted for VAWA. What I need, and I am not an attorney or 
anything else. I just want to do something in terms of how we 
can do it.
    It is going to be very, very difficult just because of the 
circumstances and everything else, but you have right on your 
side here. You have history on your side.
    I am a historian, and I was not alive, Wilson, in 1492, 
although some of my colleagues think so.
    So, I am hoping that maybe we might have another round on 
this where we have Justice and the other one, partly because I 
not only want their input. I want them to hear this testimony, 
and the more advocates that we have, this is a huge problem. It 
is not going away, and how we can correct this and get 
something done.
    Thank you, Ms. Nagle. I want to apologize, and I want to 
thank the Chairman for embarrassing me in front of everybody.
    Mr. Gallego. To reclaim my time, that was my attempt to 
help you from embarrassing yourself.
    But this is certainly not going to be the last time that we 
address this because this is a serious, serious problem. When 
thousands of our U.S. citizens, our sisters, go missing, it is 
irresponsible for us to not do something.
    With that, I would like to move down the dais here to 
Representative Cartwright for his questions.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I want to take a moment to thank Chairman Gallego for 
calling this important hearing and also to my new colleague, 
Congresswoman Haaland, who raised this issue in her campaign. 
In fact, she called MMIW an epidemic in her campaign, and I 
think she is right.
    So, thank you, Chairman, for calling this hearing.
    My understanding--and if I am mistaken, please correct me--
my understanding is that victims of violence in tribal 
communities are often reluctant to report and share information 
about crimes, and that part of this is tied to the historical 
relationship between settlers and indigenous communities, and 
that this is a particularly strong barrier in rural 
communities.
    Professor, and I want to say Chief Justice Deer, can you 
give us some examples of what these historical concerns are, 
how it plays out in present times and I am particularly 
interested in the difference between rural and urban 
communities.
    Ms. Deer. Thank you for the questions.
    I think the historical mistrust that many Native people 
have in law enforcement is well founded. I think that the 
history of law enforcement in Indian Country has not been one 
of necessarily protection, but one of persecution.
    And when you are a Native woman and your sisters and your 
aunts and your mother and your grandmother and your great 
grandmother have all been victims of violence and nobody has 
done anything, why would you come forward?
    And I think that trust has to be built, and it is not going 
to happen in one bill, and it is not going to happen in 1 year. 
That trust is going to take years and years and years to 
rebuild.
    I think the challenge in the urban environment is that 
Native women, particularly if she is not the perfect victim 
like Elizabeth Smart or Dru Sjodin that get on CNN Prime Time. 
If she has had an addiction problem or she has been homeless or 
maybe her children have been taken from her, and you go to 
urban or off-reservation police departments, oftentimes 
families tell us there is just a shrug and a ``well, what did 
you expect?''
    Then, at that point, the family is left feeling as though 
nobody cares. So, both on-reservation and off-reservation, we 
need to develop and cultivate a culture of compassion and a 
culture of understanding, and that is not something you can 
easily do through legislation.
    But I believe with the leadership of Congress we will begin 
to see a sea change in that problem.
    Mr. Cartwright. Thank you.
    Representative Buffalo, you spoke about a couple of issues 
that I am interested in, data and training. On data, we are 
interested in ways that these concerns can be overcome. What 
you said in your testimony, and I wrote it down, ``without data 
there is no clear evidence that a problem exists.''
    What can we do to improve our data collection systems?
    For example, you suggest in your testimony that the 
language of MMIW be included in the scope of work for the 
Office on Violence Against Women and the Office for Victims of 
Crime. What I am after here is: can you give us specific 
examples of language that you think should be used?
    Ms. Buffalo. Thank you, Mr. Cartwright and members of the 
Committee.
    It is unfortunate that we have to ask to include the 
language of missing and murdered indigenous women, girls, and 
people. I will say that first and foremost.
    But also, our efforts on the ground level or at the 
grassroots level are grassroots and for prevention. How can we 
prevent these tragedies from further occurring?
    We do have to address the existing structures and what 
systems are currently in place. We do need to include, we 
believe, this language of missing and murdered indigenous 
people.
    At the state level, what we found in digging deeper into 
the data collection state-wide is that North Dakota does not 
currently collect any data on missing people.
    Mr. Cartwright. Right. Well, we will talk further about the 
language.
    Ms. Buffalo. OK.
    Mr. Cartwright. And I thank you for the suggestions.
    I also understand you have proposed legislation to conduct 
training for law enforcement in your legislature. What are some 
of the topics that you think this training should focus on?
    Ms. Buffalo. Mr. Cartwright and members of the Committee, 
at the state level with the training we are tapping into 
existing structures, such as the North Dakota Human Trafficking 
Commission. That commission is comprised of different experts 
in the field.
    So, this legislation is giving that entity the freedom to 
provide that training to law enforcement. Within that 
commission, the Human Trafficking Commission, there are members 
of the First Nation's Women's Alliance, who have established 
and built relationships throughout North Dakota and the region.
    Some of this training would look at perhaps cultural 
competency training, understanding the differences within 
tribes, some that are matriarchal, and just understanding, also 
trying to find ways to build trust and to work toward healing 
and justice in our communities.
    Mr. Cartwright. Thank you so much.
    I yield back, Mr. Chairman.
    Mr. Gallego. Thank you, Representative Cartwright.
    I would like to now recognize the Chairman of the Natural 
Resources Committee, Congressman Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman and Ranking Member.
    Both of you, this hearing has been very powerful and very 
necessary, and I want to thank the witnesses for their insight, 
their expertise and, more importantly, for humanizing what we 
are talking about today.
    It is not merely, as one of the witnesses said, a question 
on numbers or where they fit in. It is a question of lives, and 
I appreciate it.
    I think one of the things that the Full Committee and that 
all of us who have participated in it, one of the missions is 
to bring voices and attention to issues that have not had their 
voices or garnered the attention that those issues demand.
    Your Subcommittee, Mr. Chairman and Ranking Member, have 
done that, and this is a good example with this hearing. I 
appreciate it very much. All of us do.
    Let me pose just a couple of questions if I may.
    Counsel, Ms. Nagle, at yesterday's Violence Against Women's 
Act markup, at that Committee, an amendment was offered that 
would strip tribes of their inherent authority to prosecute 
non-Indian domestic violence offenders.
    I bring that up. It failed, unfortunately on a party-line 
vote, which on an issue of this significance, as the Ranking 
Member indicated, it requires that everybody be involved in it, 
and if there is a bipartisan issue this Congress can find, it 
is certainly here and it is certainly at this Subcommittee.
    I want to know how is that going to impact the issue of 
missing and murdered indigenous women, if you don't mind?
    Ms. Nagle. Thank you, Chairman.
    Yesterday's proposed amendment was very disappointing to 
see. The reauthorization of VAWA in 2013 with the restoration 
of tribal criminal jurisdiction over crimes, non-Indian 
perpetrated crimes and domestic violence, gang violence, and 
criminal violation of protection orders was a huge step to 
saving more lives.
    There are Native women today who have stated publicly, and 
will continue to do so, that since the restoration of tribal 
criminal jurisdiction over those three crimes in 2013, their 
lives have been saved. And had that jurisdiction not been 
restored, their tribal government would not have been able to 
intervene and prosecute the domestic violence crimes or the 
violations of their protection order and save their lives.
    We know that. We know that tribal jurisdiction, giving the 
government closest to the ground to Native women, to prosecute 
these crimes and to protect them and their children is the best 
form of security a Native woman can have.
    So, it is very disappointing to see, in addition to it just 
being disappointing that anyone would even suggest rolling back 
this progress that has happened in the last 5 or 6 years. And 
the only statement that was made in support of the amendment 
was that simply tribal jurisdiction and prosecuting of non-
Indians in tribal courts is unconstitutional.
    That was the same rhetoric that was given in 2013 against 
VAWA. That is based on a prejudicial view that tribal courts 
must be incompetent and cannot fairly adjudicate the rights of 
non-Indian defendants.
    The 5-year NCI report which came out documenting the first 
5 years of the implementation of 2013 restored criminal 
jurisdiction shows that in that first 5 years not a single non-
Indian defendant, despite numerous cases from numerous tribes, 
filed a habeas corpus petition or lodged any formal complaints 
about any rights violations in tribal court.
    These are prejudicial beliefs that are not founded on any 
actual facts in reality, and at the end of the day, the concern 
is just if the tribal jurisdiction is stripped away, that will 
put more----
    Mr. Grijalva. I wondered what the motivation is, but that 
is another question.
    Ms. Deer, all of the witnesses in their own way referenced 
the fact that the urban residents, indigenous folk, tribal 
affiliation and their role in this process.
    Urban Indian centers, like the Tucson Indian Center where I 
am from, and a tribal center, as pieces of legislation related 
to the issue we are talking about, are they important conduits, 
important affiliations?
    Anybody can answer, anybody who wants to.
    Ms. Deer. I believe, yes, that urban centers, urban Indian 
centers should be included in all of our discussions around 
this.
    I grew up in Wichita, Kansas, and my father was on the 
board of the first American Indian center there in Wichita, and 
I know that was sort of a place of refuge for many people and a 
place where people could find one another.
    And I think if we are talking about who is going to be 
eligible for funding should funding be appropriated for this 
crisis, I think we should consider the possibility that urban 
Indian centers be provided with funding so that they can 
support the families in the urban areas.
    Mr. Grijalva. Thank you.
    And thank you for the indulgence, Mr. Chairman. I yield 
back.
    Mr. Gallego. Thank you, Mr. Chairman.
    Now it is my pleasure to pass to Representative Haaland for 
her questions.
    Ms. Haaland. Thank you very much, Chairman. Thank you so 
much for having this hearing. It is extremely important.
    Before I get started, I just wanted to ask you to explain 
the significance of the cloth that you have on the table.
    Ms. Buffalo. Representative Haaland and members of the 
Committee, this skirt was handmade by an individual by the name 
of Agnes Woodward. She is originally from Canada and is married 
to a citizen of the Mandan, Hidatsa, and Arikara Nation. She 
has made, I believe, a handful of these skirts globally, and 
they represent our missing and murdered indigenous women and 
girls, our sisters.
    She was directly impacted by her aunt, who is among the 
missing and murdered indigenous women, and so we wear these 
ribbon skirts in honor of our missing and murdered indigenous 
women.
    The ribbon skirts also are a sign. They represent prayer 
because we are a prayerful people.
    Thank you.
    Ms. Haaland. Thank you. Thank you so much.
    The silent crisis of missing and murdered indigenous women 
has been my top priority since long before being sworn into 
Congress, and I am appreciative that I am here today to hear 
your testimony, to help find solutions to this long overdue 
issue in Indian Country.
    I am wearing red today in honor of missing and murdered 
indigenous women. I wanted to mention that.
    Indigenous women deserve to be protected just like anyone 
else in this country. This is why I have been working 
diligently with my colleagues on bills to provide basic 
protections for women and programmatic support for tribal 
public safety, including the Survive Act, which increases 
resources for tribal victims' assistance through the Crime 
Victims Fund; the Native Youth and Tribal Officer Protection 
Act, to extend the protections to children and law enforcement 
personnel involved in domestic violence incidents on tribal 
lands; and Savanna's Act, to protect Native American women by 
increasing communication and accountability among state, 
tribal, and Federal lines and address the issue of missing and 
murdered indigenous women.
    I would like to personally thank each and every one of our 
witnesses here today who have provided testimony to move this 
conversation forward to protect our women.
    Yesterday, we had a prime example of how Native women have 
historically lacked representation and protections in the U.S. 
Congress and how we must continue to fight for basic 
protections that are afforded to other groups of people.
    Our Chairman mentioned this. As many of you know, during 
the Violence Against Women reauthorization markup hearing in 
the House Judiciary Committee yesterday, Representative 
Sensenbrenner attempted to amend the bill to wipe out tribal 
jurisdiction, to exclude tribes from prosecuting non-Indians 
who commit violence against women-related crimes against women 
on tribal lands.
    Although this corrosive amendment was rejected, the vote 
was split across party lines and speaks exactly to the issue we 
are working to highlight today.
    For any congressional leader to attempt to take away 
protections for not only women, but indigenous women, at a time 
when we are just beginning to understand how deep rooted and 
serious of an issue the severe lack of protections is for 
Native women is an abomination.
    As a Member of the U.S. Congress, we all take an oath that 
we are bound by to support and defend the Constitution, a 
Constitution that acknowledges that tribal governments are 
sovereign nations, and I take this oath seriously because every 
congressional leader has a responsibility to uphold the Federal 
Government's trust responsibility.
    I just want to say thank you, Professor Deer, for raising 
the issue of colonization because it has wreaked havoc on our 
people. My Pueblo people are also matrilineal, and at times it 
seems that we are still living in colonization because women 
are excluded from so many things.
    Thank you, Representative Ruth Buffalo, for running and 
winning your seat. You were meant to serve, and I am inspired 
by the vast amount of work that you have already done since you 
have been in your seat. So, thank you so much for that.
    All of your work is so important, and I am grateful for 
every single thing all of you have done to raise this issue, 
and I want you to know that I stand behind you 100 percent.
    Mr. Gallego. I yield Representative Haaland as much time as 
she deserves.
    Ms. Haaland. Thank you, Chairman.
    I will start out with a question for Ms. Jerue.
    Ms. Jerue, you also spoke of the jurisdiction issues 
concisely referring to it as the ``jurisdictional maze.'' Do 
you feel this jurisdictional uncertainty often emboldens 
criminals to commit and re-commit crimes on tribal lands 
without the fear of being held accountable?
    Does this criminal activity bleed over into urban areas as 
well?
    Ms. Jerue. I believe so, and this is my opinion. I believe 
that our jurisdiction, because of the land issue which is 
extremely complicated and we do not even have weeks and months 
to talk about, is extremely complicated in Alaska.
    But in urban areas, there is an underlying, I think, 
culture that Native people, because of what was referred to 
earlier in terms of some of them not being perfect victims, end 
up finding themselves in situations that they are vulnerable, 
homeless, have addiction, lack of jobs and housing.
    And, oftentimes, Native people in our communities are being 
brought into the urban areas because there is a lack of jobs 
and housing, law enforcement, and addiction types of services 
or medical services in our communities. So, they end up finding 
themselves in situations that they do not plan to be in.
    And because law enforcement and justice systems are 
overburdened with just the vast number of Native people that 
are in those systems, our child welfare systems, our court 
systems, our jail systems, and law enforcement systems are 
overburdened with Native citizens in Alaska in urban areas.
    And because of their vulnerability and because of what I 
spoke to, oftentimes those vulnerabilities also speak to the 
fact that they are not being investigated, I think, 
appropriately.
    And when we talk about data, the data is not being 
collected on these issues because we know that data drives a 
lot of the funding that would help to mitigate some of the 
problems. And unfortunately, it is not my favorite subject, but 
it is a reality that we have to deal with.
    I don't know if that answered your question.
    Ms. Haaland. Thank you so much.
    And this question is for Professor Deer.
    In December, I attended the Senate oversight hearing on 
missing and murdered indigenous women and heard from a young 
woman that law enforcement agencies and the FBI have 
continuously failed at investigating these crimes.
    I also heard this issue again from a young woman who 
visited my office.
    What should Congress do to ensure the FBI and local law 
enforcement are properly investigating these crimes and acting 
timely on the cases?
    And before you answer, I would just like to raise the issue 
that the FBI got its start solving murders in Indian Country, 
the Osage murders, so it seems to me that it is perfectly 
logical for them to dig in on this issue and find a solution to 
it.
    So, please answer.
    Ms. Deer. Thank you. It is an honor to be asked a question 
by you right now.
    I think the transparency is needed, and we need to require 
Federal law enforcement agencies to track the number of MMIW 
reported in their jurisdiction and include that in the required 
annual Tribal Law and Order Act reports that are already 
required.
    I think we should require our Federal law enforcement 
agencies to share information about missing and murdered 
indigenous women with tribal nations so if a Native person goes 
missing in a city or outside tribal jurisdiction, then we would 
ask the respective tribal Nations, as sovereigns, are entitled 
to know that their citizens are missing, and so that 
communication happening into the tribal leadership.
    We need Federal law enforcement agencies, including the 
FBI, to start accurately logging race and tribal affiliation in 
their database of missing persons.
    And I think any new funding for Federal agencies must 
require that they develop protocol for responding to missing 
persons cases with meaningful consultation with the tribal 
nations that they serve.
    Thank you.
    Ms. Haaland. Thank you so much.
    And, Chairman, I yield.
    Mr. Gallego. Thank you, Representative, and thank you to 
our witnesses.
    We are near the end of our hearing. Votes have also been 
called, and this is why some Members have left, just out of 
abundance of caution and not to be insincere. I wanted to make 
sure to say that.
    I hope we all gained very valuable insights into the 
epidemic of missing and murdered indigenous women, its tragic 
effects on indigenous people and their communities, and what is 
being done or not done to combat this issue. We need to find 
real world legislative solutions.
    It is clear indigenous women and girls and Native American 
communities are not receiving the support, attention, and 
resources long overdue to them to actualize both awareness and 
tangible solutions that they have been calling for.
    The Federal Government, us, must live up to its trust 
responsibility and work toward real legislative solutions in 
true partnership with indigenous women on local, regional, and 
national levels to fully address what we have heard here today.
    In closing, let me again thank the expert witnesses for 
their valuable testimony and Members for their questions. The 
members of this Committee may have some additional questions 
for the witnesses and we will ask you to respond to those in 
writing.
    And just for my personal note, I am deeply sorry that we in 
Congress have not addressed this for so long. It is a tragedy. 
It is a sin that we have done, and we need to do everything we 
can to fix this.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 10:12 a.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submission for the Record by Rep. Gallego

                         Amnesty International USA,
                                             Washington, DC

                                                     March 15, 2019

Hon. Ruben Gallego, Chairman,
House Subcommittee on Indigenous Peoples of the United States,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Subcommittee Hearing ``Unmasking the Hidden Crisis of Murdered and 
        Missing Indigenous Women (MMIW): Exploring Solutions to End the 
        Cycle of Violence''

    Dear Chairman Gallego, Ranking Member Cook, and members of the 
House Subcommittee:

    On behalf of Amnesty International USA (AIUSA) and our more than 
one million members and supporters and members nationwide, we submit 
this statement for the record.
    Since 2007, Amnesty International has documented alarming rates of 
violence against Native American and Alaska Native women and girls, 
particularly in regards to sexual violence. Our report, Maze of 
Injustice: The Failure to Protect Indigenous Women from Sexual Violence 
in the USA, documented the alarming rates of sexual violence against 
Native American and Alaska Native women. We detailed how sexual 
violence against Indigenous women is the result of a number of factors 
and continues a history of widespread human rights abuses against 
Indigenous peoples in the United States.\1\ We also documented the 
failures of the U.S. government to adequately prevent or respond to 
such violence, and the many barriers that faced Native American and 
Alaska Native women and girls in ensuring their right to safety and 
freedom from violence, including sexual violence; right to the highest 
standard of care, including after a sexual assault; and their right to 
justice. These barriers include chronic underfunding of tribal law 
enforcement and the Indian Health Service, complex jurisdictional 
issues, lack of appropriate training in all police forces, and limited 
and outdated data regarding the scale and scope of violence against 
Native American and Alaska Native women and their ability to access 
services (like basic post-rape care) or law enforcement or judicial 
engagement. We are concerned about the same failures of protection and 
barriers facing Indigenous communities in regards to missing and 
murdered Indigenous women and girls.
---------------------------------------------------------------------------
    \1\ Amnesty International USA, Maze of Injustice: The Failure to 
Protect Indigenous Women from Sexual Violence in the USA. 2007. https:/
/www.amnestyusa.org/wp-content/uploads/2017/05/mazeofinjustice.pdf.
---------------------------------------------------------------------------
    The crisis of missing and murdered Indigenous women and girls is a 
human rights crisis. Indigenous women and girls are disappeared or 
murdered each year at alarming rates in the United States. Because 
there is no consistent and standardized reporting on the issue, tribal 
epidemiology center, the Urban Indian Health Institute (UIHI) compiled 
506 cases of missing and murdered American Indian and Alaska Native 
women across 71 cities in their 2018 report, Missing and Murdered 
Indigenous Women and Girls.\2\
---------------------------------------------------------------------------
    \2\ Urban Indian Health Institute, Missing and Murdered Indigenous 
Women and Girls. 2018. http://www.uihi.org/wp-content/uploads/2018/11/
Missing-and-Murdered-Indigenous-Women-and-Girls-Report.pdf.
---------------------------------------------------------------------------
    The Center for Disease Control and Prevention has reported that 
murder is the third-leading cause of death among American Indian and 
Alaska Native women and that rates of violence on reservations can be 
up to ten times higher than the national average.\3\ However, no 
research has been done on rates of such violence against American 
Indian and Alaska Native women living in urban areas despite the fact 
that approximately 71% of American Indian and Alaska Natives live in 
urban areas.
---------------------------------------------------------------------------
    \3\ Petrosky E, et al. Racial and Ethnic Differences in Homicides 
of Adult Women and the Role of Intimate Partner Violence--United 
States, 2003-2014. MMWR Morb Mortal Wkly Rep 2017;66:741-746. http://
dx.doi.org/10.15585/mmwr.mm6628a1.
---------------------------------------------------------------------------
    Though there are critical issues regarding jurisdiction of Missing 
and Murdered Indigenous Women and Girls (MMIWG) cases on reservations 
and tribal lands, lack of prosecution, lack of proper data collection, 
prejudice, and institutional racism are factors that also occur in 
urban areas. UIHI filed FOIA (Freedom of Information Act) requests with 
municipal police departments in all 71 cities included in the survey. 
The FOIA process requires intensive follow up and resources from the 
requesting agency. In response to its FOIA requests, UIHI received 
invoices requesting payments for this information.
    Nine cities (13% of total) reported the inability to search for 
American Indian, Native American, or Alaska Native in their data 
reporting systems despite the commonly expected practice of classifying 
victims by race. Of the agencies that did provide data, nine (23%) 
located data prior to 1990, 18 (45%) located data prior to 2000, and 29 
(73%) located data prior to 2010. The oldest case UIHI identified 
happened in 1943, but approximately two-thirds of the cases in UIHI's 
data are from 2010 to 2018.\4\ This suggests the actual number of urban 
MMIWG cases are much higher.
---------------------------------------------------------------------------
    \4\ Urban Indian Health Institute, Missing and Murdered Indigenous 
Women and Girls. http://www.uihi.org/wp-content/uploads/2018/11/
Missing-and-Murdered-Indigenous-Women-and-Girls-Report.pdf.
---------------------------------------------------------------------------
    The barriers in accessing data on this issue from law enforcement 
impede the ability of communities, tribal nations, and policy makers to 
make informed decisions on how best to address this violence.
    In October 2017, former U.S. Senator Heidi Heitkamp (D-ND) 
introduced Savanna's Act (named after Savanna LaFontaine-Greybird, a 
Native American woman from North Dakota who was murdered), as the first 
piece of major legislation specifically addressing Missing and Murdered 
Indigenous Women and Girls. It passed the U.S. Senate unanimously in 
December 2018. In early 2019, U.S. Senators Lisa Murkowski (R-AK) and 
Catherine Cortez Masto (D-NV) reintroduced Savanna's Act.
    Savanna's Act requires the Department of Justice (DOJ) to update 
the online data entry format for federal databases relevant to cases of 
missing and murdered Indians to include a new data field for users to 
input the victim's tribal enrollment information or affiliation.

    Savanna's Act will also require that the DOJ:

    <bullet> make standardized law enforcement and justice protocols 
            that serve as guidelines with respect to missing and 
            murdered Indigenous women,

    <bullet> meet certain requirements to consult with tribes, and

    <bullet> provide Tribal governments and law enforcement agencies 
            with training and technical assistance relating to the 
            development and implementation of the law enforcement and 
            justice protocols.

    AIUSA recommends:

    <bullet> Requiring the DOJ, Interior, and HHS (Health and Human 
            Services) to solicit recommendations from Tribal nations on 
            enhancing the safety of missing Native American and Alaska 
            Native women and girls and improving access to crime 
            information databases and criminal justice information 
            systems during the annual consultations mandated under the 
            Violence Against Women Act.

    <bullet> Requiring the creation of standardized guidelines for 
            responding to cases of missing and murdered Native 
            Americans and Alaska Natives, in consultations with Tribal 
            governments, which will include guidance on inter-
            jurisdictional cooperation among tribes and federal, state, 
            and local law enforcement.

    <bullet> Requiring statistics on missing and murdered Native 
            American and Alaska Native women and girls, and 
            recommendations on how to improve data collection, to be 
            included in an annual report to Congress and passage of the 
            Savanna's Act.

    For more information, please contact Tarah Demant by phone at: 202-
509-8180 or email at: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="126676777f737c6652737b6761733c7d60753c">[email&#160;protected]</a>

            Sincerely,

                                    Tarah Demant, Director,
                             Gender Sexuality and Identity Program.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
